No.

h the
Supreme Court of the Unit€d States
JONNAVEN JO MONALIM ANd MISTY MARIE
MONALIM,
Petitioners,
v.

HAWAIIUSA FEDERAL CREDIT UNION,
Respondent.
a
On Petition for a Writ of Certiorari
to the Supreme Court of the State of Hawaii
o

APPENDIX: EXHIBITS

1

THROUGH

GARVVICTON DUEIN

Counsel of&ecord
DUSIN Law

Orplcns

55 Merchant Street, Suite 3100
Honolulu, Hawaii 96813

Telephone: (soe) sgz'zgoo
Facsimile: (aos) szs'zzea
-Mail
: gdubin@dubinlaw. net
E
A t torney

for

Pe ti ti on

e

rs

5

EXHIBIT 1

,',9r,{,ijlij,l T f:OURT
Jill,..1;

r0t0

ocr

5r9569. r

IIAI'ANABI] ING LTP
A Limited Liability

Law Partnership

-

6504-0
Y. LAI
9l'8?-o
oHTA
L'
TRAcnY
First Hawaiian Center
999 BishoP Street, 23td Floor
Honolulu, Hawaii 958f3
Telephone No.: (808) 544-8300
Facsimile No-: (8OB) 544-8399
JONATHAN

W.

t3 m & 53

-s1gl._

AttorneYs for Plaintiff

HANATTUSA FEDERAL CREDIT UNTON

rN

THE CIRCUIT COURT OF TIIE FTRST CTRCOIT
STATE OF HAWATT

crvrL No- t0-1-1388-06

HAI'ATTUSA FEDERAT CREDIT UNTON,

(FORECL.OSURE)

PLainriff,
vsJO MONALIM; MISTY ltlARIE
MONATIM; ASSOCIATION oF
APARTMENT OTINERS OF BEACH VILLAS
AT KO OLfNA, bY its Board of
JONNAVEN

Directors;

KO OtfNA COMMUNfTY
ASSOCIATION' fNC., a flawaii
nonprofit corPoration; JOHN DOES
1-10; atANE DOES L-10; DOE

ORDER GRANTING IN PART AND
DENYTNG IN PART PI,ATNTTFF
HAVIAI IUSA FEDERAL CREDIT
ONTON'S MOTTON FOR DEFICIENCY

WDGMENT AGAINST DEFENDANTS
JONNAVEN JO MONALIM AND MTSTY
MARTE MONALIM FILED JANUARY

12,

2016

Hearing
Dat,e: FebruarY 23,

L-r.0; DOE
CORPORATTONS ]--].0" DOE ENTITTES
1-10; DOI: GOVERNMENTAL UNITS 1PARTNERSTIIPS

201'6

Time: 9:30 a.m.
Judge: Bert 1. AYabe

10,

NO TRTAL DATE SET

Defendants.

J
IN PART AND DENYTNG IN PART
FEDERAL CREDIT UNTON'S I{OTION
HAWAIIUSA
PLAINTTFF
AGAINSf, DEFENDANTS JONNAVEN
JUDGMENT
T'oR DEFTCIENCY
E
MONAI,IM FILED JANUARY 12 201 6
ISTY
MARI
JO MONALTM AND M
ORDER GRANTING

ffi,wrygl,sg.
@

.

P.lai

nti f f

HAWAIILTSA FEDERAL CREDI? UNION's

Deficiency Judgrnent Against DefertdanLs
MIS?Y MARIE MONALIM

"Motion"),

came

Motion for

JONNAVEN JO ITONALIM and

filed herein on Januaxy L2.

20'Ld (Lhe

for hearing befo::e lhe Honorable Bert I -

on February 23, ?076 at 9:30 a.m- Jonathan 9i-Y. Lai,
appeared

for PLaintiff

("Plaintiff').
JONNAVEN

Ayabe

Esq-

HAItAIIUSA FEDERAL CREDIT UNION

Gary V- Dubin, Es9. appeared for Defendants

JO MONALIM ANd MTSTY

MAR.TE

MONALIM. ThCTC WETE NO

other appearances. The court havlng reviewed the Motion,
memoranda and responses and being duly advised of the record
file herein aDd for good cause appearing therefore,
grants in part and denies in part Plaintiff's

and

hereby

Motion.

A deficiency judgment shalL enter in favor of

Plaintlff and against Defendants
MARIE MONALIM,

JONNAVEN JO MONALIM

and

MISTY

with respect to the Notes, as tnore fully

described in PLaintiff's

Complaint. in the amount bf

f'oUn

HUNDRED NINETY-THRIIH ?HOUSAND T9OO HUNDRED ETGHTY'TIIO AND 04l1OO

DOILARS ($493,282.O4'l

. Th.ts atnount includes the deficiencies

Counts f and Count lI of Plaintiff's

on

Complaint, the attorneys'

fees and costs incurred in preparing the Motion, and the

attorneys' fees and costs

awarded

by the Intermediate Court of

Appeals of the Stat€ of Hawaii.
The Court denies Plaintiff's

reguest for continuing

interest on Counts I and Count II, from the

December

30,

2011

closing date to the entry of t.he Deficiency Judgnent as wel]

-2-

as

Plaint.iff's rerlrrbst for stsLutor)' interest atL€r t'he etit"r.y of
the Def -icicric5r Juclqmc'rrL ciue to the clelay in f i.l ing t-he instant
Mot-ion.

ll' .tS I'UR']'H!;R ORI)F:Rh;D ttraL' pursuant to

RuLe 54 (b) of

the llawaii Rules of Civil Procedure, the foregoing shall
considered as a final orcJer and judgmetrt and tl:ere shall

be
hre no

just reason for delaY.
DATED:

Honolulu, Hawai'i,

ocT

I 2 2010

BERT I. AYABE

Judge of the above-e
Approved as

ti

c l- .r.
-!-r'\

\

il

I

to form:

GARY V. DUBIN, ESQ.
Attorney for Defendants

JONNAVEN JO MONALIM and MISTY
I"IARIE MONAI.IM

HAT{AIIUSA FSOERAL CRE DIT UNION v. JONI,IAVEN JO MONALIM, ET AL.; CIVIL NO- 101-1388-06; ORDER GRAN'I'I NG TN PAR'J' AND DENYING ]N tsART PLAIN'fIFT HA}JAI IUSA
FEDERAL CREDIT UNION'5 MOTION FOR OEFICIENCY JUDGMENT AGAINST DEFENDANTS
5
JONNAVEN JO MONAI.IM ANO MISTY MARIE MONALIM T"ILEO JANUARY 72, 207
J

EXHIBIT 2

''E?I,fli,iifityi'
3r9969.

llls {lCI t3 ilt

1

T{ATANABE

ING LLP

A Limit,ed Liability

Br

SL

Law Partnership
IA

5504-0
II. Y. LAI
9L81-O
L. OHTA
First Hawaiian CenLer
999 BishoP Street, 23td Floor
Honolulu, Hasaii 96813
Telephone No.: (808) 544-8300
Facsimile No.: (808) 544-8399
JONATHAN
TRACEY

Attorneys for PLaint-i f f
HAWAIIUSA

rEDERlt cREDr?

rN

UNION

THE CTRCUTT COURT OF THE FIRST CIRCUIT
STATE OF HAWATI

HATIAIIUSA FEDERAL CREDTT UNION,

crvrl No- 10-1-1388-06
(FORECLOSURE)

Plalntiff,
vs
JONNAVEN JO MONALIM,' MTSTY MARIE

MONALIM; ASSOCIATTON OF
APARTMENT OI|NERS OF BEACH VILLAS
AT KO OLINA, bY its Board of
Directorst KO OLINA COMMUNITY
ASSOCIATION, INC.' a Hawaii
nonprofit corPoration; iIOHN DOES
1-10; JANE DOES l-10; DoE
PARTNERSHIPS 1-10; DOE
CORPORAI'rONS 1-10; DOE ENTITTES
1-10; DOg GOVERNIIENTAL UNfTS 1L0,

Defendants.

DEFICIENCY JUDGI'ENT AGAINST
DEFENDANTS JONNAVEN JO MONALIM
AND MISTY IIARIE MONALIM IN
FAVOR OF PI,AINTIFF HAIIAIIUSA
TEDERAL CREDIT UNION

Hearing

Date: February 23, 20L6
Time: 9:30 a.m.
Judge: Bert I- AYabe
NO TRTAL DATE SET

DEFICIENCY JTIDGMENT AGATNST DEFENDANTS
JONNAVEII JO MONALIU AND MISTY UARIE MONALIM
AND Tfi INVOR OF PLATNTIFF HANAIIUSA F'E DERAL CREDTT UNION

l'S*,8#.

'jr

'Pur-i.ualrl.

Lo LhaL ce-rt,ain "Order Granting in Part

Denying in Part Plaintiff

HawaiiUSA Federal

Credit Union's

Motion for Deficiency Judgment Against Defendants Jonnaven
Monalim and Misty Marie

and

Jo

Filed January 12, 2016" filed

concurrently herein,
NO9O

THEREFORE,

that PlaJNtiff

DECREED

TT TS

HEREBY ORDERED, ADJUDGED, AND

HA!{ATIUSA FEDERAT CREDIT UNTON hAVC

deficiency judgment entered against Defendants
MONALIM

A

JONNAVEN Jo

and MISTY MARfE MONALIIII in the principal amount of

FOUR

HUNDRED NTNETY-THREE THOUSAND TWO HUNDRED EIGHTY-TWO AND O4I1OO

DOLT,ARS ($493,

282.04)

.

This Court expressly directs that said Deficiency
Judgment

is entered as a final judgment as there is no just

reasons for delay, pursuant to RuIe

CiviI

54

(b) of the Hawaii Rules of

Procedure.
DATED:

Hono1ulu, Ilawaii,

ocT

I 2 20t0
it"
E

Judge of the above
Approved as to form;

{::.
ri

11 qd
' r-tl'

1

Court

V. DUBIN, ESQ.
Attorney for Defendant.s
GARY

JONNAVEN

MARIE

JO MONALIM and MISTY

MONALTM

rrewnrrubn nept:nll cnaoir-tiFibri-r. .ionllnffi-to MofrAt,r-li,*ri [i-.; clvrl, Ho'To1-1.388-06,' DETICIENCY JUDCMEN:I' AGAINST DEFENDANTS JONNAVEN .TO MONALIM AND
MISTY MARIN }'ONALIM

IN

FAVOR

O'' PLAINTTFF
2

HAT{AIIUSA FEDERAL CREDIT (INION

EXHIBIT 3

NOT F'OR PTJBLICATION IN WEST'S IIAWAI.I RNPORTS AI{D PACIFIC REPORTER

Electronically Filed
lntermediate Court of ApPeals
CAAP-16-0000807
17-MAY-2018
09:13 AM

NO. CAAP-16-0000807

IN

THE INSERMEDIATE COURT OF APPEALS
OT THE STATE OF

HAWAINI

HAWAIIUSA FEDERAIJ CREDIT UNION, Plalnt,iff-Appellee'
v. 'JONNAVEN ,JO MONALIM; MISTY MARIE MONAI,IM'
Def endant s-Appe I I ant s'
and
ASSOCIATION OF APARTMENT OIIiNERS OF BEACH
VILLAS AT Ko OLINAT by its Board of Directors;
KO OLINA COMMUNITY ASSOCIATION, INC-, a Hawaii

nonprofit corporation; Defendant-Appellees,
and

DOES 1-10; JANE DOES 1-].0; DOE PARTNERSHIPS
1-10; DOE CORPORATIONS 1-10; DoE ENTITIES 1-10;
DOE GOVERNMENTAL UNITS 1-10, Defendants

'TOHN

APPEAI, FROM THE CIRCUIT COURT OF THE F'IRST CIRCUIT

(crvr], No. 10-L-138B)

(By:

SUMMARY DISPOSTTTON ORDER

Ginoza

, C.J., Fujise and Chan,

.7J.

)

Defendants-Appellants .Jonnaven Jo Monalim and Misty
Marie Monalim (collective1y, the ldonali:ns) contest, the foJ-J-owing
entered by the Circuit Court of the First Circuitl (cireuit
court) on October !3, 20L6:
(1) the "Order Granting ln Part and Denying ln Part,
plaintiff HawaiiUSA Federal Credit Union's Motion for Deficiency
I

The Honorable

Bert I.

Ayabe presided

NOTTORPT'BLICATION IN WESTIS IIAWAI.I REPORTS AND PACItr'IC REPORTER

Against Ithe Monalims] filed January L2, 20L6" (LO/L3/LG
Order Granting Defieiency Amount); and
(2) "Deficiency ,Judgment Against Ithe Monalims] in
Favor of Plaintiff[-Appe1lee] HawaiiUSA Federal Credit Union
[ (HawaiiUsA) ] " (10/13/16 Deficiency iludgment) .
On appeal, t,he Monalims contend2 that t1) HawaiiUSA was
guilty of Lach6s; (2) the clrcuit, court erred in its refusal to
conduct an evidentiary hearing regarding HawailUSA's delay in
seeking a deficiency judgrnent,; and {3) the circuj.t court erred by
denying the Monallrns procedura] and substantive due process
rights under the Hawai'i State Constitutj-on and the United States
constitution by depriving them of property without an evidentiary
hearlng to determine the fair value of the property at the time
of the confirmation sale.
Upon careiul review of the record and the brlefs
submitted by the parties and having given due consideration to
the argument,s advanced and the issues raised by the parties. as
well as the relevant statutory and case law, we resolve the
Monalims' points of error as follows and affirm as set forth
,Judgnnent

below.

This dispute arises from a judicial forecl-osure ln
which the Monalims appeal from the t0/L3/16 Defieiency .Iudgment.
on ,January !2, 2A16, after the circuit court entered.a
foreclosure judgment in its favor and approximately four years
after confirmation of the sale of the Property, HawaliUSA filed
its ,'Motion for Deficiency .Iudgment Against lthe Monall-ms] "

2 lhe MonaLims also argue in t,heir points of error section lhat: the
and
1,0/13/L6 btffcfen.y ,Iudgment i'was eontrary.to the law of the case"
prejudice$"
ni*,iiiuse,s deray in se6ting a deficiency-j_udgznent.'ri.rreparabJ.y
llowever, eontentions
ine I,fonalims beciuse they r6tieO on HawaliUSAis waiver.
RuLes o-{AppelJ.ate.Proeedure
;;i ;;;u;d ot "pp""i are-daerned walved. Hawal"'l
-(InAPi'n"ie
ieibj (?); rn re Guardlenshle of cSrlFmLEh, 113 Hawafi 236' 246'
appeltare courl may "disregard a
iat i:3d 7J.?, iZr'tzboffiotfns thar -n
makes no dlscernible argument In
paiticufar contention ii the apiellantquotation
marks, brackets omitted, and
lupport of that position") {intlrnal
cltation onitted).
2

NOT rOR PT'BLICATION IN WEST'S HAWAI.I REPORTS AND PACITIC REPORTER

(L/L7/!G Def,iciency Motion) . On February i.6, 20L6t the Monalims
filed their opposition to the L/12/16 Deficiency Motion arguing
that HawaiiUSA's Deficiency Motion was untimely and in violation
of due process of Iaw, and, that an evidentiary hearlng should be
held to det,ermine the fair market value of the subject,property.
The circult court subsequently entered the L0/T3/16 Order
Granting Deficiency Amount and the 10/t3/t6 Deficiency Judgnent
in favor of HawaiiUSA and against the MonaLims in the amount of
$493,282

. A4 .

(1)

Lraches

The Monalims contend that HawailUSA was guilty of
laches because the L/I2/15 Deficieney Motion was not, filed at the
time of the confirmation of sale in December 20L1. Instead,
HawaiiUsA filed the l/12lL6 Deficiency Motion in 2016,
approximately four years later. The Monalims cite to BavBank
Connecticut. N.A. v. Thumlert, 222 Conn. 78A' 610 A.2d 658 (1992)
to argue that HawailUSA's delay in filing a deficiency motion
prejudiced the Monalims and thus the defense of laches is
applicable. Aside from a cursory mention of Thumlert, the

provide no authority to support their contention.
The Monallms do not point to a statutory time limit for
the filing of a deflclency judgment, Moreover, the Monalims had
notice of the possibility of a defj-ciency Judgment at the summary
judgment stage and following the confirmatlon of the sale of the
property, On August. 29, 203'7, the clrcuit court entered its
"Findings of Fact, ConcLusions of Law and Order Grant,ing
Plaintiffrs Motion for Summary rfudgnent as to A11 Claims and All
Parties, Interlocutory Decree of Foreclosure and Order of Sale"
(8129/LL Eow/col/order) which stated:
Monal-ims

11. At the hearing for sonflrmatlon of sale, if lt

appears that proceeds of, the sale of the Mortgage Property
are insufficient to pay alL amounts due and owing to
Plaintiff, Plaintlff may request a deflclency judgment in
its favor and agalnst [the MonalLms], Jolntly and severally,
for the amount of the defLclency which shalJ. be deternlned
at the time of confirmation and have imnredlate executlon

thereafter.

3

NOT F'OR PUBLICATION IN WEST'S IIA\ryAI.I REPORTS AND PACII'IC REPORTER

on November 9, 20L1, HawaiiuSA filed it's "Motion for
Conflrmatlon of SaIer Directing Distrlbutlon of Proceeds, for
Deficiency Judgnent, Writ of Possession and Disposal of Personal
Property" {1"L/9/'f1 Confirmation Motion} where it moved for the
circuit court to enter an order in favor of HawaiiUSA and
,,against lthe Monalims] , jointJ.y and severally, for the amount of
any deficiency, if the proceeds from the sale of the Mortgaged
Property are insufficient to ful1y satisfy the amounts due to
[HawaiiUSA] . " At the hearlng on the IL/9/tt Confirmation Motion,
the circuit court granted Hawal1USA's motion but the minutes
provide that the Monalims' counsel objected and the circult court
ordered a further hearing on the deficiency judgment.3 Thus, i.t
appears t.hat upon the Monalims' objectlon, a deficlency judgment
amount was not determined during the hearing. The Monalirns argue
that because the I /29/L1 EAE/COL/Order stated that the deficiency
amount "shaIl be determlned at the time of confirmation" and it
was not determined at that time, such inaction "shoul-d be enough
in itself to mandate reversal [. ] " However, we hold that because
the Monalims objected and sought a further hearing on the
deficiency judgment, this argument is without meritOn December L1., 20LL, the circuit court entered its
',Order Granting Plalntlff's Motlon for Confirmation of SaIe,
Directing Distribution of Proceeds, for Deficiency .ludgment, Wri-t,
of possession and Disposal of Personal Property Filed November 9,
2OILtt (L2/22/LL Con9iraation Order) and ordered that "since the
proceeds from the sale of the Mortgaged Property are insufficlent
to fully sattsfy the anounts due to [HawaiiUSA] ' that a motion
for deficiency judgrnent may suQsequently be filed by l]lawaiiuSAl
against Ithe Monalims], jointly and severa1Iy."
3 On Deeernber 1, zlltt the circuit court held a hearing on the mot,l-on
for confirrnation of sa1e. The record does not contaj-n a transcript of the
that, the circuit court granted the
hearing. However, the minutes provide1'[wJith
objeetion made by Mr. Dubin,
7L/9/li Confirmatlon Motion, however
Court ordered further hearing on deficlency judgmeDt."
4

REPORTER
NOT FORPI'BLICATION IN WESTIS H,AWAI.I REPORTS AND PACIF'IC

Thet/12/16DeficiencyMotionlncludedacalculationof
the deficiency amount due and owing after the sale proceeds were
applied. Thus, at both the summary Judgment stage and folLowing
the 3.2/22/11 Conflrmation Order, the Mona]ims were on notice as
to the posslbiltt,y of a deficiency judgrnent belng filed, The
Monalims also $rere aware of the 72/22111 Confirmation order and
the likely deficiency that would remain following the sal-e of t'he
property. The Monalims fail to provide a dj.scernable argument as
to laches and they were on notice of the deficiency amount such
that their contentj.ons related to prejudice are without merit'
(2, Evidentiary hearing on prejudiee
The Monali-ms contend that the circuit court should have
held an evidentiary hearing on prejudj-ce because the Monallms
coul-d have fii.ed for bankruptcy and "in effect suffered no
deficiency judgrnent at all" but for HawaiiusAts delay in seeking
a deficlency judgment. The Monalims also maintain that they
sought an evidentiary hearing before the clrcuit court and the
circuit court denied such a hearing'
.Withregardtothecontentlonthatahearingon
preJudice shouLd have been held, the Monalims argue that the
circuit court refused their request for such a hearing' However'
the record shows that the Monalims did not request a hearing on
prejudice ln thel-r opposition to HawaiiUSA's 1/L2/!6 Deflciency
Motion or file any motions seeking such a hearing. Aceordingly,
the circuit court did not deny such a motion or request for a
hearing.

Further, the circuit court did address potential
prejudlce to the Monalims. In lts l/12/16 Deficiency Motj-on,
HawaiiusA sought interest on the deficiency balance from December
30, 20t1., to the date of the entry of the deflciency judgment'
However in its t}/73/t6 order Granting Deficiency Amount, the
circuit court denied HaroraiiUSArs "request for continuLnq interest'

the entrv of the Deficiencv

Judqment as
5

well as lfiawaii

USA]

NOT FOR PUBLICATION IN WESTIS HAWAI.I REPORTS AND PACIFIC REPORTER

request for st,atutory interest after the entry of the
Defj-ciency Judgment due tSr-the deLay ln filing the instant
Motion. " (Emphasis added) . Thus, the circuit court did not
permit HawaiiUSA to benefit from its delay in filing the L/t2/16
Deficiency Motion and thereby prejudice the Monalims.
Moreover, following the L2/22/AI Confirnation Order,
the Monallms did not seek a dismissal under Hawai'i Rules of
Civi] Procedure (HRCP) Rule 41 (b) (1) or the Rules of the Circuit
Courts of the State of Hawai'i. The reeord shows that between
the circuit court's 72/22/Il Confirmation Order and HawaiiUSA's
L/L2/t6 Deficiency .Tudgment, the Monalims did not file any
motions to bri-ng closure to the proceedj-ng.
(3) Evidentiary hearing on a:nount owed
The Monalims assert that the process in Hawal'l for
determining deficiency judgrnents violat'es their due process
rights and ln calculating the deficiency judgrnent, an evidentiary
hearing should have been held to determlne the fair market value

Plaintiff's

.

of the forecLosed ProPert'Y.
In response, HawallUSA notes that foreclosures in this
jurisdiction are bifurcated lnto two separat,e appealable parts
and that the Monalims have previously filed an apPeal in this
case. The Monalims previously appealed and challenged the
circuit court's 8/29/Ll TOF/CAL/Order and the relited ,Judgment
(8129/IL forecLosure ifudgrnent) both filed on August 29t 2011',
which resulted ln appellate court case number CAAP-L1-000071.0
(airst Appeal). Hawai'iUSA Fed. credj.t union v. Monalin, No.
SAAP-11-0000710, 201-2 wL,4L22914. at *1 (Haw- App. Sept' 19,
2AL2l . The Monalimst First Appeal was dismissed pursuant to HRAP
Rule 30 for their failure to file an openlng brief or seek relief
from the default of the opening brief. T,he Monalims also
indicated that they were ln the "process of circulatlng a
stipulation for dismissal of this Appeal, " however, no
stipulation was filed. Id. Thus, whi.le the Monallns had the
6

NOT FOR PUBLICATION IN UMST'S IIAWAI.I REPORTS AIiiD PACIFIC REPORTER

opportunity, they failed to raise any point of error relating to
the Monalims' liability for a deficiency judgment or how a
deficlency judgment would be calculated.
As noLed above, the 8/29/11 ror/Col,/Order ordered that
HawaiiUSA may request a deficiency judgnent as follows:
11, At the heari

for confirmation of sale, tf it
may

request

a

ency

udgment

ts favor and against Ithe Monallmsl, jointly and
severally' fo-r the amount of the defleiencv which shaLl bs
determined at the tlne of confirmation and have irunedlate

execution t,hereafter.
(Emphasis added).

In Mortq. Elec. Reqistration Sys., Inc. v. $lise, the
Hawai'i Supreme Court exercised appellate Jurlsdiction but held
in a Judicial foreclosure action that challenges to a forecLosure
judgment were barred by res judicata where the defendants failed
to appeal from the initial foreclosure judgrnent. 130 Hawai'i 11,
304 P.3d 1.192 (2013) .

fn this case, simiLar to {iqe,, we exercise appellate
Jurlsdiction but, hold that the Monalims are precLuded from
chaltenging the method of calculating their deficiency judgment..
The Monalims' right to a deficiency judgrnent and the method for
calculating the deficiency judgment were adjudieated and set,
forth ln the 8/29/Lt FOE/coL/Order, and incorporated lnto the
relat,ed 8/29llt ForecJ-osure,Judgment. Although the Monalims
timely appealed from the subsequent L0/L3/t6 Deficiency Judgment,
they are only entitled to challenge the errors unique to that
L0/L3/L6 Deficiency ,tudgment. See id- at 16, 304 P.3d at LL97i
Ke Kallani Partners, LLC v. Ke Kaj-lani Dev. LLC, Nos.
CAAP-12-0000758 and CAAP-12-0000070, 2016 WL 2941054, at *7 (Haw.
App.Apr. 29,2016) {Mem. Op.), cert. denied,20L6 Wt 4651424, at
*1 (Haw. Sept. 6, 2016) (holding, inter aJ,ja, that appeLlants had
waived their challenge to the method used to determine a
deficiency judgment by dismissj.ng a prior appeal from a
foreclosure order that had set forth the entitlement to a
7

NOT FOR PUBLICATION IN }VEST'S IIAWAI.I RSPORTS AND PACItr'IC REPORTER

deflclency judgment and the method for determlning the amount);
see. AISS L,CP-Maul. LLC v. Tucker, No. CAAP-15-0000109, 2018 Wt
1"082855, at *l-2 (Haw. App. Feb. 28, 201,8) {SDO) (holding that
appellant was precluded from challenging the method of
cal"culating her deficiency judgment because she previously
appealed the foreclosure judgment) .
Thus, the Monalims' arguments on appeal related to the
issue of a delayed L/12/t6 Deflciency Motion are ulthout merlt.
With respect to the arguments on appeal related to the nethod by
which the deficj-ency would be calculated, the L0/L3/t6 Deflciency
Judgment, in t,hie appeal did not adjudicate the method, but rather
was incident to the enforcement of the earlier I /29/Ll
Foreclosure ,Judgment. See Wlse, 130 Hawai'i at !6, 304 P.3d at
1197. Accordingly, the Monallms are precLuded from challenging
the met.hod of calculatlng their deficiency Judgment and their
remaining arguments on appeal are without merlL.
Therefore,
1T IS HEREBY ORDERED that the "Defj-ciency ,fudgrnent
Against Defendants .Jonnaven .fo MonaLim and Misty Marie Monalim
Favor of PJ.aintiff HawaliUSA Federal Credit Union, " entered on
October 13, 2AL6, J-n the Circuit Court of the First Circuit

is affirmed.
DATED: Honolulu, flawai'i, May J.7, 2O!8,

the brlefs:
Gary Victor Dubin,
Frederick J, Arensmeyer,
for Defendants-Appellants
'Jonathan W.Y. Lai,
Thomas .T. Berqer,
Tracey L. Ohta,
for Plaintif f-Appe11ee.
On

4"LwLk4

Chlef ,Judge v

a

.

s

ate

Ju

a*,4H

Associate

I

,fudge

1n

EXHIBIT 4

Electronically Filed
lntermediate Court of APPeals
CAAP-16-0000807
16-AUG-2018
08:20 AM

NO. CAAP-L6-0000807

IN

TTIE INTERMEDIATE COURT OF APPEAI,S

OF THE STATE OF HAWAI.I
I{AWAIIUSA FEDERAL CREDIT T'NION,

Plaintiff

-APPe1lee,

v.

iIONNAVEN .lO MONALTIM; MIgrY IIARIE MONATJIM,
Def endant s -APPel"LantE

and
ASSOCIATION OF APARTMENT OWNERS OF BEACH
VILLAS AT KO OLINA' by its Board of Directors;
KO OLINA COMMUNITY ASSOCIATION, INC., a Hawaii
nonprof it corporat, ion ; Def endant' -Appe3-3" ee s,

and
JOIIN DOES L-l-o; .TAI{E DOES 1--L0; DOE PARTNERSHIPS
1-10; DOE CORPORATIONS 1--L0; DOE ENIfITIES L-LO;
DOE GOVERNMENTAT, UNITS 1-10, Defendants
APPEAIJ FROM THE CIRSi]IT COURT OF TI{E FIRST CIRCUIT

(ervr], No. L0-L-1388)
JUpGMENT ON

"APPqAI-.I
(By: cinoza, Chief Judge, for the courtl)
pursuant to the Summary Dieposition Order of this court
entered on May 1-?, 20L8, the "Deficiency ,Iudgment Agal.nst
Defendants ,fonnaven ,fo Monalim and Misty Marie Monalim and in

cinoza, Chief iludge, FuJLse and Chan, J'I'

I'
Favor of plainttff HawaiiUSA Federal Credit Union, entered by
t,he Circuit Court of t,he Firsl Circuit on October 13, 20t6, iE
affirmed.

Further, pursuant to this courtts ttorder Approving
Request For Attorneyts Feeg and Costs,il filed on July 16' 20L8'
judgment is entered in favor of Plalntiff-AppeLlee Hawaiiuse
FederaL credit union and against Defendants-Appellant's ,ronnaven
ilo Monalim and Mlsty Marie Monal"im ln the amount of $6 ,2].3.51 for
attorney's fees and $14'04 for costs'
DATED: Honolu1u, Hawai'i, August 16, 2018'
FOR THE COIJRT

tr

7-,>-U
Chief ,Judge

I

No

IN THE SUPREME COURT OF THE STATE OF HAWAII
HAWAIIUSA FEDERAL CREDIT UNION,
P I ai ntiff-AP Pe

I I ee/Re s Po n

d e nt,

V.

JoNNAVENJoMoNALIMandMISTYMARIEMoNALIM'
Defe n d a nts-Appe I I a nts/P etiti on e rs,

and

ASSOCIATION OF APARTMENT OWNERS OF BEACH VILLAS AT KO OLINA, bY itS
Board of Directors, KO OLINA COMMUNITY ASSOCIATION, lNC., a Hawaii nonprofit
corporation, JOHN DOES 1-10, JANE DOES 1-10, DOE PARTNERSHIPS 1-10, DOE
CONPONNTIONS 1.10, DOE ENTITIES 1-10, DOE GOVERNMENTAL UNITS 1-10,
Defendants.

On Appeat from the Circuit Court of the First Circuit
(civil No. 1o-i-i388-06 BIA -. The Honorable Bert L Ayabe, Presiding)

olot0
CERTIFIGATE OF SERVICE

EXHIBIT 5

***FOR PUBLICATION IN

TIEST

rs HAWAI.I

REPORTS AND PACIF'IC REPORTER***

Electronically Filed
Supreme Gourt
scwc-16-0000807
30-APR-2020
10:08 AM

]N THE SUPREME

COURT OF THE STATE OF HAWAI.I

---o0o--HAWAIIUSA FEDERAL CREDIT UNION'

Respondent/ Plainti ff-AppelIee '
VS

JONNAVEN JO MONALIM; MISTY MARIE MONALIM,
Petitioners / De f endants-Appellants,

and
ASSOCIATION OF APARTMENT OWNERS OF BEACH VILLAS AT KO OLINA'
by its Board of Dj-rectors; KO OLINA COMMUNITY ASSOCIATION, INC.'

a Hawai'i nonProfit corPoration,'

Respondents / De fendant

s

-Appe1 Iees

.

scwc-16-0000807
CERTTORARI TO THE INTERMEDIATE COURT OF APPEALS
(CAAP-15-0000807; CIV. No l-0-1-1388)

APRrL

30,

2020

McKENNA' POLLACK' AND WILSON, JJ., WITH NAKAYAMA' J , CONCURRING
AND DISSENTING, WITH WHOM RECKTENWALD' C.J.' JO]NS

oPrNroN oF THE COURT BY POLLACK' J

The law has long permitted a borrower r oT mortgagor'

to pledge real property to a lender r oY mortgagee, as security

***FoR PUBLICATIoN IN I|EST'S HAI{AI.I

REPORTS

AIID PACIFIC REPORTER***

for a foan. In the event of a default, the mortgagee may seII
the property to generate funds that will 90 toward paying
is owed. In

some

what

instances, however, the proceeds of the sale

are insufficient to pay what is due under the mortgage, and the
mortgagee is entitled to a deficiency judgment holding the

mortgagor liable for the remaining balance.
Such a deficiency occurred in this case. The

mortgagors defaul-ted on the l-oans, the property was sold,

and

the forecfosure sale price was less than the amount due on the
mortgage. Thereafter, the mortgagee waited over four years'
without explanation, before attempting to coll-ect a deficiency
judgment. The mortgagors contend that this delay

was

unreasonable and prejudiced them because they had begun to

rebuild their l-ives in the years since the saIe, and the
mortgagee should therefore be barred from now seeking

a

deficiency judgment by the doctrine of laches. They also arque
that, because the circumstances of a foreclosure auctj-on are
Iikely to result in the sale of the property for l-ess than its
fair market value, the process by which Hawai'i courts calculate
They ask that we instead adopt

a deficiency judgment is unfair.

the approach favored by a majority of other jurisdictj-ons and
the Restatement (Third) of Property, in which the greater of the
fair market value as of the date of the foreclosure sale or the

2

***FOR PUBLICATION IN

I{EST 'S HAWAI.I FEPORTS

AIID PACIE'IC REPORTER***

sale price of the property is deducted from the

money owed when

calculating the deficiencY.
on review, we hol-d that the mortqagors' challenge to
the deficiency judgment is not barred by res judicata and that

the circuit court erred by failing to rule on their laches
defense. We also hold that, because the traditional approach
can result in unjust enrichment and the majority rule protects
all parties to the mortgage, the equities weigh in favor of
adopting the method of cal-culating a deficiency judgment
However' our
employed by a majority of other jurisdictions.

adoption of the majority rule is prospective in effect and
applies only to foreclosure cases in which a deficiency judgment

is entered after the date of this opinion
I.

'

FACTS AND PROCEDURAI HISTORY

A. Background

In

2OOB, Jonnaven

Jo Monalim and Misty Marie Monalim

(the Monal-ims) received two loans from HawaiiusA Federal credit
Union (HawaiiUSA) to purchase a property l-ocated in Kapolei'

Hawai.i(theProperty).ThePropertywasathreebedroom,three
bathroom unit of the Beach villas at Ko Olina Condominium built
loan (Note 1) was for $911,200.00; the
second loan (Note 2) was for $1131900.00. Each loan was secured
by a mortgage on the Property to HawaiiUSA'
in 2008. The first

3

***FOR PUBLICAIION IN !{EST' S HAWAI.I

REPORTS

A![D PACIFIC REPORTER***

on June 24, 201-0, HawaiiusA filed a complaint in the
circuit court of the First circuit (circuit court) against the
Monalimsrl alleging that the Monal-ims had defaulted on the notes
and seeking to foreclose on the mortgages ' Thereafter'
HawaiiUSA filed a motion for summary judgment, which the circuit

court granted on August 29, 201,I (Forecl-osure order) . The
circuit court found that the Monalims owed fi1",024,428.04 on Note
l- and $12L,54'7.20 on Note 2 and. that HawaiiusA was entitled to
foreclose upon the mortgages securing the notes. on the same
duy, the circuit court entered its judgment on the Foreclosure
Order (Foreclosure Judqment)

'

In the Foreclosure Order, the circuit court appointed
a commissioner to take possession of the Property and oversee
its sale, subject to confirmation by the court. HawaiiUSA was
allowed. under the Foreclosure Order to request a deficiency
judgment in the event that the proceeds recovered from the

Property, s auction were insufficient

to cover the Monalims'

outstanding debt on the notes:
Atthehearingforconfirmationofsale,i-fi-tappearsthat are
the proceeds of the sale of the Mortgaged Property
insufficient to pay aI1 amounts due and owing to judgment
IHawaiiUSA], [HawaiiUSA] may request a deficiency
initsfavorandagainstthe[Monalims]fortheamountof
the deficiency which shal-f be determined at the time of
confirmation and have i-mmediate execuLion thereafter.

1

The Honorabl-e Bert I. Ayabe presided'

4

***FOR PUBLICATION IN

I{E ST'S

The Monalims filed

EAI{AI.I

REPORTS

AIID PACIFIC IIEPORTER***

an appeal of the Foreclosure Order

and Foreclosure Judgment to the Intermediate Court of APPeaIs

(ICA) on September 28, 20LL.
September

The appeal was dismissed on

20, 20L2, for failure to submit an opening brief.
The Property was auctioned at public safe on october

24, 201L. Prior to the sale, the Property received a 20It tax
assessment from the City and County of Honol-ulu in which it was
valued at $703r600.00. According to the commissioner's report'

only three people attended the auction and sixteen bids were
received. The last bid was for $760,000.00' In the report, the
commissioner stated that $760r000.00 was a fair and reasonabfe

bid price based

on comparable

court confirm the sale.

sales and recommended that the

HawaiiUSA filed

a motion to confirm the

sale and for deficiency judgment. After a hearing, the circuit
court entered an order granting the motion on December 22,20L1-.
The circuit

court outl-ined the amounts outstanding

and

directed the commissioner to disburse the proceeds of the sale
in order of prior ,_ty.2 The court further ordered
that since the proceeds from the sale of the Mortgaged
property are lnsufficient to fully satisfy the amounts due
to IHawaiiUSA], that a motion for deficiency judgment may
2

The circuit court found that as of October 3!,201I, the Monalims
owed $1-,080,852.'79 on Note 1, which included the principal balance, interest.
accumufated late charges, and an escrow advance, and owed 51'2'1,82L-36 on Note
late
2, which incfuded the principal balance and interest, plus any accruing
granting
order
The
charges or advances up to the date of escrow closing.
confirmation of sale also included amounts for commissioner's and attorneys'
fees and costs.

5

***FoR PuBLICATIoN IN IIEST'S HAWAI.I

REPORTS

AIID PACIE.IC REPORTER***

subsequently be filed by IHawaiiUSA] against Ithe
Monafimsl, jointly and severallY'

The record indicates that the circuit

court--based on the

Monalims' objection--ordered a further hearing on the matter of

the deficiency ludgment. The judgment confirming the sale
also entered on December 22, 20L7.

was

B. HawaiiUSA's Motion for Deficiency iludgment

Over four years laterr ofl January L2, 2016, HawaiiUSA

filed a motion for deficiency judgment. In its motion,
HawaiiUSA requested $355,681 .0'7 on Note l- and $131'755.87 on

Note 2, which it alleged remained outstanding as of December 30,

20II, the closing date of the sale.3 The amount outstanding

on

Note 1 was calculated by subtracting the net proceeds of the

sale ($735,045.92) from the amount owed on Note

L

($1,090,'732.99). Because the net proceeds were insufficient to
pay the full amount owed on Note I, no sal-e proceeds were

applied to the outstanding balance on Note

2

-

The Monalims filed a memorandum opposing HawaiiUSA's

motion for deficiency judgment, contending that the motion

untimely because HawaiiUSA waited "for more than

was

an

unprecedented four tl years" lo bring the motion and that
t
Harai|USA requested the following additionaf sums: 'tcontinuj-ng
interest" on both noLes from December 30, 20LL, until 'tthe date of entry of
the defj-ciency judgment and sLatutory interesL" thereafter on both notes;
attorneys' fees and costs for the preparation of the motion for deficiency
judgment; and attorneys' fees and costs refated to the Monal-ims' previously
dismissed ICA appeal.

6

***FOR PUBLICATION IN

Ti!EST'S

IIAWAI.I

REPORTS

A!{D PACIFIC REPORTER***

therefore barred by the doctrine of l-aches '
According to the Monalims, HawaiiusA was required by the
Forecl-osure order to request the amount of any deficiency
HawaiiuSA was

immediatelY following the sale of confirmation, "which it

Il

The Monalims averred that

deliberatelY chose tl not to do'"

they coul-d have filed for ChaPter 7 BankruptcY and suffered
deficiency judgment had HawaiiUSA filed its motion in 201I.

no

Instead, the Monalims contended, "in reliance upon there being
no deficiency judgment theY Ihad] set out to rebuild their
1ives. "

TheY each

started a business, began saving for their

dauqhter's college tuition'

and were only a few months from

clearing the foreclosure from their credit rePorts, the Monalims
stated in an appended declaration. HawaiiUSA' s unexPlained
delay in filing

its motion for deficiency judgment would

"overwhelming[ly] prejudice" them, they argued'

afso challenged the method used for
cal-culating the deficiency judgment and contended that an
evidentiary hearing shoul-d be hel-d to determine the fair market
value of the Property at the time of the sale. According to the
The Monalims

Monalims, Hawai'i courts currentfy calculate the amount of a
deficiency judgment by "mathematically" subtracting the net
proceeds of the sal-e from the mortgage debt without considering

any evidence of a higher property val-uation or any subsequent

sales for higher prices.

Hawai'i courts will set aside the
7

***FOR PUBLICATION IN WEST'S

EAWAI

'r

REpoRTs AlfD

PAcrarc REPoRTER***

earlier auction price only if it is said to "shock the
conscience of the CouTL," the Monalims related. The Monalims
contended that this "completely ignores reality and equity"
because lenders have the ability

to routinely "credit bid" for

the property at the foreclosure auction, thereby scaring away
competition. a This enables a mortgagee to recover the property
at l-ess than fair market value and secure a windfall' the
Monalims asserted. The resul-t, the Monal-ims argued, is that
borrowers are penalized beyond what the foreclosing mortgagee

actually lost.
The Monalims contended that this procedure for

calculating deficiency iudgments violates both procedural and
substantive due process because mortqaqees are constitutionally
entitled to no more than payment in full.

The Monalims

maintained that Hawai'i's method represents the minority view

states and that. the circuit court shou]d instead conduct a
separate evidentiary hearing to determine the fair market value

among

of the Property, which would be deducted from the mortgage debt

4

A credit bid allows a secured lender to bld up to the amount of
Teisina, t31- Hawai'i 457.
debt owed to it in lieu of cash at safe. Lambert v.(*A'credit
bid' is a bid
(per
(20L4)
curiam)
n.5
459 n.5, 319 P.3d 376, 378
debt,
a
of
interest
principal
and
unpald
the
to
up to an amount equal
cash"')
tendering
without
expenses,
other
and
fees,
cosCs,
wlth
LtgeLher

B

***FOR PUBLICATION IN IIEST' S HAWAI.I

REPORTS AI'TD

PACITIC REPORTER***

in lieu of the sale price if it is the greater of the
(Citing Sostarj-c v. Marshal-l , 166 S.E.2d 396 (W.Va.

two

201'4)

'

')

In its reply, HawaiiUSA argued that its motion for
deficiency judgment was proper because Hawai'i law does not
require such a motion to be filed within a certain time from the
date of confj-rmation. Further, HawaiiUSA argued, the Monalims
did not suffer any prejudice because HawaiiUSA did not prevent

the Mona1ims from filing bankruptcy or make representations that
it woul_d not seek a deficiency judgment, and the Monalims coul-d
still

file for bankruptcy. HawaiiUSA also contended that under

Hawai'i caselaw, the court may refuse to confirm the sale if the

highest bid ..is so grossly inadequate as to shock the
conscience," which it was not in this case' (Quoting

Wodehouse

v. Hawaiian Trust co., 32 Haw. 835, 854 (Haw. Terr. L933).)
HawaiiUSA maintained that third party bidders were not
discouraged from bidding; HawaiiusA did not receive a windfall;
and the Monalims' due process rights were not viol-ated.

At the hearing on the motion for deficiency judgment'
the circuit court asked counsef for HawaiiUSA if there was any
reason why it had waited four years to file the motion. Counselresponded that, without going into attorney-client privileged

information, counsef could not "comment about any particular
client's,, propensity to seek a motion. However, counsel
contended that once a judgment is obtained it fasts for ten
9

***FOR PUBLICATION IN WEST'S HAWAI.I

REPORTS A}ID PACIE'IC REPORTER***

years and, by analogy, the motion should be considered timely
because it was brought within that time period.

The Monalims

responded that the analogy worked the opposite way because
HawaiiUSA coul-d

wait an indefinite amount of time to seek the

deficiency judgment, effectively extending the statutory period
for collecting the judgment, which was contrary to the
legislature's intention to give the borrower
limiting the time period of liability.

Some peace by

HawaiiUSA

replied that

further hearing on the deficiency judgment was ordered based

a

on

the Monalims' objection at the confirmation hearing and argued
that the foreclosure price was reasonable.
On October

!3,

201"6,

the circuit court entered its

"Order Granting in Part and Denying in Part [HawaiiUSA's] Motion

for Deficiency Judgment Against Ithe Mona]-imsl Filed January 12,
20L6" (Order Granting Deficiency Judgment) and the "Deficj-ency
Judgment Against

the Ithe Monalims] and in Favor of

[HawaiiUSA] "

(Deficiency Judgment). The Order Granting Deficiency
awarded HawaiiUSA

Judgment

a deficiency judgment of $493,282.04.5 "ID]ue

to the delay in filing"

the motion, however, the circuit court

denied HawaiiUSA's request for interest for the period between

the closing date of the sale and the entry of the Deficiency
5

The amount lncluded the deficiencies on the two l-oans, attorneys'
fees and costs incurred in the preparation of the moti-on, and attorneys' fees
and cosL associaLed with the Monalims' dismissed ICA appeal.

10

***FOR PUBLICAEION IN VIEST'S HAVIAI.I

REPORTS A}TD

PACIFIC F.EPORTER***

Judgment, ds weII as its request fOr statutory interest for the
period after the entry of the Deficiency Judgment. The order

Granting Deficiency Judgment did not address the laches defense
raised by the Monalims or their request for a hearing as to the
market value of the Property. The Monalims appealed to the ICA'
C. ICA Proceedings

on appeal, the Monalims maintained that HawaiiusA's
motion for deficiency judgment was barred by laches and that the
circuit court should have held evidentiary hearings on prejudice

resulting from the untimely motj-on and on the amount owed'
The ICA entered its Summary Disposition Order (SDO) on
May L1 , 201,8.6 The ICA held that the Monal-ims' assertion that
the d.eficiencY judgment was required to be determined at the
time of the confirmation of sale was without merit because the
Monal-ims objected and sought a further hearing in regard to the

deficiencY judgment.

ThelCAalsostatedthattheMonalimsmadeno
discernable argument about laches. Nevertheless, the

ICA

addressed the prejudice posed by HawaiiusA' s delay in fiIing the
motion, concluding that the order confirming the sale of the

Property gave the Monalims notice of the possibilitY of a
deficiency judqment such that their contentions related to
can be found at HawaiiUSA Fed Cred. Union v
No. CAAP-16-0000807 , 2OLg WL 2254'70'l (May 17 ' 2018)
The lCA's

Monal-i-m,

SDO

L1

***E.OR PUBLICATION IN WEST'S IIAWAI.I REPORTS AI{D PACIFIC REPORTER***

prejudice were without merit.

The ICA additionally found that

the Monalims had not requested a hearing on prejudice and held
that the circuit court therefore did not deny their request for
a hearing. Further, the ICA noted' the circuit court did
address potential prejudice to the Mona]ims when it denied
HawaiiUSA's request for continuing interest from the closing

date of the sale to the entry of the Deficiency Judgment and for
statutory interest after the entry of the Deficiency Judgment '
The ICA also pointed to the Monalims' faifure to seek

a

dismissal- under Hawai'i Rules of civil- Procedure (HRCP) RuIe

41(b)(1)ortofi].eamotiontobringcfosuretothe
proceedings.
The ICA likewise rejected the Monal-ims' contention

that the circuit court should have held an evidentiary hearing
on the amount owed. The ICA ruled that the method for
calculating the deficiency was not determined by the Deficiency
Judgment but rather the amount was incident to the enforcement
of the Foreclosure Judgment. The lcA found that the Monalims
had the oPPortunitY to challenge how the deficiencY j udgment
would be calculated in their first

aPPeaI, and theY fail-ed to

so. The ICA therefore held that the Monalims

12

were

precluded

do

bY

***FOR PUBLICATION IN WEST'S IIAVIAI.I

REPORTS A}ID

PACIFIC REPORTER***

the

res judicata from challenging the method of calculating

Deficiency Judgment and affirmed the circuit court.
II.

T

STAI{DARDS OF REVIET{

Questions of

A.

Law

"Questions of law are reviewed de novo under the
Roes v. FHP, Inc.,

right/wrong standard of review."

9L Hawai'i

4'70, 473, 985 P.2d 66L, 664 (I999 ) (quoting Francis v.

Lee

Enters., Inc , 89 Hawai'i 234, 236, 91L P.2d '70'7, 109 (1eee)) .
B. Courts Sitting in EguitY
The extent of the relief granted by a court in equity
rests within the sound discretion of the circuit court and wil-l
not be disturbed unl-ess the circuit court abused its discretion.
Peak Capital GrP. ' LLC,

v.

Perez

, I4l- Hawai'i 160, 112, 407 P.3d

L16, L28 (20L7) ; Hawaii Nat'I Bank v. Cook, 100 Hawai'i 2, 7, 58
p.3d 60, 66 (2002). A court abuses its discretion by "issuing a
decision that clearly exceeds the bounds of reason or

disregardIing] rules or principles of law or practice to the
substantial detriment of the appellant. " Cook, 100 Hawai'i at J,
58 P.3d at 66 (quoting Shanghai Inv. Co. v. Al-teka

Co.

,

92

Hawai'i 482, 493, 993 P.2d 516, 526 (2000)).
7
The Monalims further argued as points of error that the
deficiency judgmenL was "contrary to the law of the caser " HawaiiUSA waived
its right to a deficiency judgment, and they were irreparably prejudiced
because they reasonably relied on HawaiiUSA's waiver. The ICA did not
address the merits of these issues.
13

***FOR PUBLICATION IN !{EST' S HATIAI.I

REPORTS AI{D

PACIFIC REPORTER***

Statutory Interpretation

C.

The interpretation of a statute is a question of law

that is reviewed de novo. Deutsche Bank Nat'l Trust Co. v.
Greenspon, I43

Hawa

j-'i

23'7

III.

A.

, 243, 428 P. 3d '7 49, 755

(2018 )

.

DISCUSSION

The Monalims' Challenge to the Deficiency iludgment Is Not
Barred by Res .fudicata.

The ICA held that res judicata barred the Mona1ims

from challenging the method in which the Deficiency Judgment

was

calculated because they failed to raise the issue in their
appeal of the Forecfosure Judgment. It is true that the

doctrine of res judicata prohibits parties from relitigating

a

previously adjudicated cause of action or cl-aims that could

have

been brought in a prevj-ous action between the same parties but

were not.

Hawai'i IL,

Mortg. El-ectr. Registration Sys., Inc. v. Wise,
1,7

-l-8, 304 P. 3d 1'1'92, IL98-99

(2013)

130

. However, under

this court's precedents, "foreclosure cases are bifurcated into
two separately appealabl-e parts: (1) the decree of foreclosure
and the order of sale, Lf the order of sale is incorporated

within the decree, and (2) al-l- other orders." Id. at 16,

304

P.3d at L1,97 (quoting Sec. Pac. Mortg. Corp. v. Mi11er, 1I

Haw

65, 70, 783 P.2d 855, 857 (1989)). And the bifurcated nature of
mortgage forecfosure proceedings is treated as two separate

L4

***FOR PUBLICATION IN VIEST'S

TIAVIAI

or

REpoRTs Al[D

PAcrFrc REPoRTER***

proceedings for res judicata purposes. Id. at I'7, 304 P'3d at
1198.

s

567-51

Additionally,Hawai.iRevisedStatutes(HRS)
(a) (Supp. 2010) sets forth the specific orders that are

in the forecl-osure context ' Section
66i-Sl-(a) (1)8 provides that an adjudication of the right to a
deficiency judgment incorporated into a judgment on a decree of

deemed f inal and appeal-abl-e

foreclosure is final and appeal-able. separately, section
66'7-51 (a) (3)e states that an appeal may be taken from the
I

HRS

amount

S 66'7-5L(a) (1) provides as follows:

(a) WithouL limiting the class of orders not specified in
section 641'-I from which appeals may also be Laken, the
following orders entered in a foreclosure case shalf be
finaf and aPPealabfe:
(1) A judgment entered on a decree of forecfosure' and
if the judgment incorporaLes an order of safe or an
adjudication of a movant's right to a deficiency
judgment, or both, then the order of safe or the
lOluOication of liability for the deficiency judgment
af so shal-l- be deemed f inal and appealable [ ' ]
it is not
Additionally, HRs s 66'7-51,(a) (2) provides that, i-n the event
order
an
on
incorporated with another order, " Ia] judgment entered the circuit confirming
the sale of the foreclosed propertY," is appealable "ifand certifies court
expressly finds that no just reason for delay exists, rules of civil the
juigment as fj-nal pursuant to rul-e 54 (b) of the Hawaii
procedure [. ] "

in
e
HRS S 567-51 (a) (3) provides that the following order entered
forecfosure case shal1 be finaf and appealabfe:
(3) A deficiency ludgment; provided that no appeal from a
deficiencyjudgmentshallraiseissuesrelatingtothe
ludgmentoentor,sllabilityforthedeficiencyjudgment(as
opposed to the amount of the deficj-ency judgment) ' nor
shalltheappeafaffectthefinalityofthetransferof
titletotheforeclosedpropertypursuanttotheorder
confirming sale.
15

a

***FOR PUBLICA TION IN !|EST' S HAVIAI.I

REPORTS ATiID

PACIFIC FEPORTER***

of a deficiency judgment provided that the appeal does not raise
issues rel-ated to the judgment debtor's right to the deficiency
judgment or affect the finality

forecfosed property.

of the transfer of title

of the

It is thus unsurprising that in Wise, this

court held that the defendant's "timely appeal from the
Deficiency JudgmenLs would enti-tle it to challenge errors unique

to it, such as an erroneous uPset price or miscalculation of
deficiency.tts 130 Hawai'i at L6, 304 P.3d at tL97 (second
emphasis added) (quoting Mil-]er, 7I Haw. at lI, 783 P.2d at
8s8)

.

The ICA misapprehended this holding
because the Monalims failed

calculating

an

concfuding that

to challenge the method for

the deficiency in their appeal of the Foreclosure

Judgment--which was dismissed--they were barred by res j udicata

from challenging it in an appeal of the Deficiency Judgment. In

Wise, the petitioner appealed from an order confirming sa1e,

challenging the respondent's standing to bring the forecl-osure

suit "in the first place." 130 Hawai'i at 15, 11,304 P.3d at
LLg6, L1-98. We concfuded that because the issue of standing
could have been raised at any time, it was noL "unique" to the
confirmation of sale and should therefore have been challenged

10
Although the court did not cite HRS S 567-51 (a) as a basis for
its decision in Wise, its holding is consistent with the statute.
L6

***FOR PUBLICATION IN WEST'S

HA9IAI

'r

REpoRTs AlfD

PAcrFrc REPoRTER***

in an appeal from the judgment of foreclosure. Id. at I'7,
P.3d at

1198

304

.

In contrast to the standing issue before the wise
court, the Monalims' appellate challenqe is to the method by
which the circuit court cal-cufated the deficiency judgment'
which pertains to the amount of the deficiency judgment--not
HawaiiUSA's right to collect it "in the first

at 15, I'7,304 P.3d at ILg6, 1198.

When

place'"

See

id'

the Monalims' appeal of

the Foreclosure Judgment was dismissed by the ICA, the Monalims
l_ost the ability to contest HawaiiUSA's right to a deficiency
judgment pursuant to the Forecfosure Judgment. However'

pursuant to

HRS

S

Monalims may still

667-51 (a)

(3) and this court's precedents, the

appeal the Deficiency Judgment as long

as

their challenge contests the cal-culation of the deficiency
amount and not HawaiiUSA's right to the deficiency judgment
under the Foreclosure Judgment. The Foreclosure Judgment did

not set out the amount or method for cafculating the deficiency
judgment. Because the Monal-ims were not required to contest the
of the deficiency judgment in their appeal from the
Foreclosure Judgment, the prior proceeding does not implicate

amount

res judicata.

The ICA therefore erred in concluding that the

!'7

***EroR PUBLICATION

Monalj-ms were

IN WEST'S EAWAI.I

REPORTS A}ID

PACIFIC REPORTER***

barred from contesti-ng the method for calculating

the amount of the deficiency iudgment.ll
B.

The Circuit Court Failed To Address the Monalims' Laches
Argrument.

"Mortgage foreclosure is a proceeding equitable in

nature and is thus governed by the rules of equity."

Beneficial

Hawaii, Inc. v. Kida, 96 Hawai'i 289, 3I2, 30 P.3d 895'

918

(2001). An equity court's sound discretion is not bound by
rd.
strict rules of law, but it can be molded to do justice
a doctrine reserved for equitable

Although laches was originally

proceed.ings }ike the present case, this court has st.ated that'

in t.he State of Hawai'i, "laches is a defense in afl civil

actions. "

Ass'n of Apartment Owners of Royal Aloha v

Certi fied

, Inc. , 139 Hawaj-'i 229, 235, 386 P.3d 866, 812 (2016)
Therefore, laches is a defense against a motion for deficiency

Mgmt.

j udgment

.

See BayBank Conn.,

N.A., v. Thumlert,

610 A.2d 658'

662 (Conn . L992) (* [A] defendant who is demonstrably prejudiced
by a plaintiff's

delay in filing

a motion for deficiency

judgment may invoke the equitable defense of faches."),'
Banking Co.

E

v. Robbins, !49 N.W. 719, 780 (Neb - 191'4) (holding

11
We also overrule the following ICA cases to the extent that. they
judicata barred the mortgagee from challenging the method in
res
hefd that
which the deficiency judgment was calcufated Ke Kailani Partners LLC v. Ke
Kailanj- Dev. LLC, Nos. CAAP-l-2-0000758 & CAAP-12-0000070, 201'6 WL 2941054
(App. Apr . 29, 20I6) (mem.); LCP-Mau i, LLC v. Tucker, No. CAAP-15-0000109'
2018 WL 1082855 (App. Feb. 28, 2018) (SDo)

18

***EOR PUBLICATION IN

I{E ST'

S

IIAWAI

't

REpoRTs At{D

PAcrFrc REPoRTER***

that "a court of equitY in the exercise of its inherent power to
deny relief on account of laches, independently of the statute
of limitations'
when

should refuse to enter a deficiency judgment"

the Petitioner

had

waited more than L4 Years)

.

The doctrine of l-aches reflects the maxim that equity

aids the vigilant,

not those who slumber on their rights '

Smal-l

, 6f Haw. 626, 640, '701" P.2d. 641 , 656 (l-985) . There
are two prongs of the laches defense' both of which must be
satisfied in order for the doctrine to become apPlicable:

V

Badenhop

FirsL, the re must have been a delay by the plaintiff in
bri-nging h is claim, and that delay must have been
unreasonab fe under the circumstances. Delay is reasonable
if the claim was broughl- withou t undue delaY after
plainliff knew of the wrong or knew of facts and
circumstances sufficienl to impute such knowledge to him
Second, t.hat deIaY must have resulted in Prejudice to
defendant

v. Herrmann, I38 Hawai'i I44,153, 378 P.3d 860, 869
(201.6) (quoting Adair v. Hustace, 64 Haw. 31-4, 32L, 640 P'2d

Herrmann

294, 300 (t982)).
Despite ruling that the Monal-ims made no discernabfe

a laches defense, the ICA also stated that the
Monalims' arguments aS to prejudice--the second prong of laches_werewithoutmerit.However,areviewoftherecord
argiument as t.o

demonstrates that the Monalims raised substantive arguments as

to both of the defense's requirements'
Whenevaluatingthefirstprongoflaches,acourt
considers whether, under the circumstances, t.he delay in
19

***FOR PUBLICATION IN I{EST'S ITAWAI.I

REPORTS A}TD

bringing the cfaim was unreasonable. Id.

PACIFIC REPORTER***

In this case, the

judgment confirming the sal-e was entered on December 22, 20LL'
More than four years later, ofl January 12, 20L6, HawaiiUSA filed

its motion for deficiency judgment. The Monal-ims argued in
their opposition to HawaiiUSA's motion that the four-year delay
was unprecedented, and that HawaiiUSA had provided no

explanation for the delay in its submissions to the court. And
when asked directly during the hearing on the motion, counsef

for HawaiiUSA declined to provide an explanation for the delay,
citing attorney-client privilege.

The Monalims' establishment

of a four-year delay in HawaiiusA seeking to recover a
deficiency amount from the Monal-ims and the l-ack of any
explanation for this delay by HawaiiUSA satisfied the Monalims'
burden to adduce sufficient facts to raise a laches defense with
regard to the first

Prong.

Cf. Herrmann, 138 Hawai'i at 153-54,

378 P.3d at 869-'70 (notinq that the plaintiff

did not proffer

a

sat.isfactory excuse for the almost seven-year delay in bringing
suit); see also In re Kawai, 36 Haw. 533, 535 (Haw. Terr. 1943)
(observing that a party who waited nearly five years after the

final order of distribution before

commencing an

action to

revoke a will did not provide a "satisfactory excuse")

.

As t.o the second pronqi' that the delay must have

resulted in prejudice to the defendant, we have stated,

"What

qualifies as prejudice for purposes of the l-aches doctrine
20

***IIOR PUBLICATION IN }IEST'S ITA!{AI.I

REPORTS AI{D

PACIFIC REPORTER***

invariably depends on the facts and circumstances of a
particular case, but it is ordinarily understood as anything
that places the defendant 'in a less favorable position."'
Herrmann, 138 Hawai'i at 154,378 P.3d at 870 (citing 27A
Am.Jur.2d Equity S I43 (2008) ).

At the circuit court, the

Monal-ims averred

in

a

declaration that they had planned to file a chapter 7 Bankruptcy
petition to discharge the potential deficiency judgment but had
their plan "after waiting close to a year" in
anticipation of the deficiency )udgment. In the interim, the
abandoned

Monalims explained, they had each started a business, started

saving for their daughter's college tuition,

and were only

months from clearing the foreclosure from their credit reports.
The Monalims arqued to the circuit

court that the deficiency

judgment would "wipe out" all of their financial gains since the

confirmation of safe,

whJ-ch woul-d

not have occurred if

HawaiiUSA

for a deficiency judgment in 20II. The Monalims therefore
contended that they woul-d be in a significantly worse position--

moved

and suffer significant prejudice--as a resul-t of HawaiiUSA's

delay.
The Monalims thus alleged facts concerning each prong

of their laches defense. See Kerrigan v. Kerrigan 642 A.2d
1324, 7327 (D.C. App. 1,994) (holding that the defendant made a
prima facie showing sufficient to establish that injustice would
2L

***FOR PUBLICATION IN WEST'S HAWAI.I

result from the plaintiff's

REPORTS AND

PACIFIC F.EPORTER***

unexplained eight-year delay in

bringing suit based on evidence that the defendant's financia.lsituation had greatly changed in the interim) . The ICA in this
case thus clearly erred in holding that the Monal-ims made no

discernable argument as to a laches defense. Additj-ona11y,
despite the presentation of the defense, the circuit court did

not render findings of fact and conclusions of law or otherwise
rule upon the applicability of the Monalims' laches defense in
its Order Granting Deficiency Judgment or the Deficiency
Judgment.

The present case

in which the plaintiff

r-s

analoqous to Herrmann v. Herrmann,

brought a motion for post-decree relief

against the defendant to recover overpaid child support
approximately seven years after being notified about the
overpayments. f3B Hawai'i at L41-48, 378 P.3d at 863-64.

The

defendant argued that the seven-year delay was unreasonabl-e and

that the plaintiff

provided no explanation for waiting to bring

the action for reimbursement. Id. at 148t 378 P.3d at 864.
family court denied the plaintiff's

The

motion, citing the seven-

year delay in raising the issue and concluding that the

plaintiff

was "estopped" from pursuing the claim.

Id. at

150'

378 P.3d at 866. On appeal, the ICA determined that the family

court's decision was based on "estoppel by l-aches" and that the
family court had not

made an independent conclusion
22

as to

***FOR PUBLICATION IN I{EST'S

HAWAI

'r

REpoRTs AlfD

PAcrFrc REPoRTER***

Id. at 150, 378 P.3d at 866. Applying its own
judgment, the ICA held that both requirements of "estoppel by
l-aches" were not present, and it accordingly vacated the family

prejudice.

court's decision. Id. at 150-53, 3f8 P.3d at 866-69.
On review, this court determined that there were three
possible explanations for the family court's failure to make
findings of fact as to prejudice: (1) the family court did not
apply the laches doctrine; (2) the court implicitly found that
the prejudice prong had been satisfied; or (3) the family court
failed to recognize that prejudice was
application

of laches.

a

required prong for

t.he

Id. at 155,378 P.3d at B7L. Because of

the family court's silence, w€ stated that it was uncertain
whether the prejudice prong had been satisfied,
remanded

and the case

was

to the family court to render factual findings with

respect t.o whether the defendant was prejudiced by the delay'
rd.

Similarlyrthereareatleastthreepossible
explanations for the circuit court'S silence regarding the
Monalims' l-aches defense: (1) the circuit court implicitly
concluded that l-aches was inapplicable because it determined

that there was no unreasonabl-e delay or that the Monalims
suffered no prejudice; (2) the circuit court faited to properly
apply the laches defense; or (3) the circuit court fail-ed to
duly consider the Monalims' laches defense. That is to Say,
23

***FOR PUBLICATION IN

based on the circuit

WEST'S

IIAWAI.I

REPORTS AITD

PACIFIC REPORTER***

court's lack of findings as to the

l-aches

defenser we are unable to determine on review whether the

circuit court appropriately considered this defense presented
the Monal-ims.12 See 138 Hawai'i at 155, 378 P.3d at B'11'

by

-

The ICA alternatively held that the circuit

court

addressed the potential pre;udice to the Monalims by denying
HawaiiUSA's requested interest on the deficiency amount
Howeverr ds our holding in Herrmann illustrates,

'

because the

circuit court did not issue any findings with regard to
prejudice, w€ cannot know whether this constituted appropriate
consideration of the l-aches defense. See

Herrmann

, 138 Hawai'i

at 155-56, 378 P.3d at 81L-12. The ICA also concluded that the
Monalims were on notice of the deficiency amount such that their
contentions related to prejudice were without merit'

Though the

1-2 The concurring and dissent.ing opini-on (dissent) agrees with our
conclusion that the circuit court erred by failing to address the Monal-lms'
laches argument, but it then proceeds to consider and rule on the merits of
the Monafims' c]aim as if it were in the position of the trial courL.has
Dissent aL 23. when an appellate court discerns that a trial court
failed to make a finding because of an erroneous view of the law, the to
standard rufe is that the ca se should be remanded to the trial court
been
permit t.haL court to evaluat e and render the findings that should have29I
2'73,
U.S.
456
Puflman-Standard v. Swint,
made i-n the f irst lnstance.
(1982). The onlY excePt ion to this rufe is when the reco rd permits onlY one
552
resol-ution of the factua I issue. Sp rint/united Mgmt.. co v. Mendelsohn,
rule
to
failed
ca
se
this
i-n
court
ial
tr
the
u.s. 3'79,387 (2008). B ecause
no
upon the aPPlicabiIitY o f the Monalims' laches defense an d rendered
positlon
to
in
a
not
is
clearlY
court
this
s
defense,
thi
on
facts
of
findings
Iaches
Monalims'
rul-e as a matLer of law regarding factual- aspects of the
defense. We accordingly decline to deviate from the basic principlev' of faw
See also Goo
that fact-finding shoul-d be left to the fact-finder'
(*[A] trial- court is
(20L4)
668
655,
Arakawa, 132 Hawai'i 304, 3I7, 321- P.3d
to fashion
distance
at
a
operating
court
netter equipped than an appellate
equitable relief. ") .
24

***FOR PUBLICATION IN

fact that the

VIEST'

S

HAWAI

Monal-ims were on

'r

R.EpoRTs AtiID

PAcrFrc REPoRTER***

notice of the potential

deficiency judgment against them in 20]-L is part of the
circumstances to be considered by the circuit court in
evaluating the prejudice prong, it is not dispositive of the
Monalims' contention that they have been prejudiced by
HawaiiUSA's delaY in pursuing the deficiency judgment, nor can
we conclude that this fact was actually considered by the

id. ; Badenshop, 67 Haw. at 640, 701 P-2d aL
where changes in the value
657 ("Prejudice has been found

circuit court.13

See

of the subject matter or in the defendant's Position

have

occurred[ . ] " (emphasis added) ) .

In sum, we hold that the ICA erred in affirming the
circuit court's Deficiency Judgment without the circuit. court
having demonstrably addressed the Monalims' l-aches defense.la
The ICA also noted that the Mona]ims did not seek a dismissal
any motlons to bring closure to the proceeding. However, under
file
order or
show they actively tried
a laches analysis, Lhe Monal-ims are not required toprejudlce'
to bring the proceedings to a close to demonstrate
t4
The Monal-ims also argued to the ICA that the Deficiency Judgment
violated the ..Law of the Case" and that HawaliUSA waived its right to the
deficiency judgment. on certiorari- review, the Monal-lms addltionallyareargue
the defense of estoppel by acquiescence. The Monafims' contentions in the
premised on their it'rlerpt.tation of the term "sharr" i-n the provision
Foreclosure Order granting Hawai-iusA the right to a deficiency judgment'
13

At the hearing for confi-rmation of sale, i-f it appears that
theproceedsofthesaleoftheMortgagedPropertyare
insufficient to pay aI1 amounts due and owing to
IHawaliUSA],[HawaiiUSA]mayrequestadeflciencyjudgment
in its favor and against Lhe [Monalims] for the amount of
thedeficiencywhichshalfbedeterminedatthetimeof
confirmation and have i-mmediate execution thereafter.
(

25

continued

***FOR PUBLICATION IN Ii!EST'S HAVIAI.I

REPORTS AND

PACIFIC REPORTER***

And thus, the order Granting Deficiency Judgment and the

Deficiency Judgment must be vacated, and on remand the circuit
court shal-l- consider and render a determination on the Monalims'
Iaches defense. 15
c The Traditional Approach to Determining a Deficiency Judgment
May Hold Mortgagors Liable for More than What Is Owed and
Grant Mortgagees a Windfall.

In what appears to be a matter of first impression
before this courtr we review the method by which Hawai'i courts
calculate deficiency judgments. The Monal-ims arque that courts

in Hawai'i "matter-of-fact]y" calculate a deficiency judgment
subtracting the net proceeds of the foreclosure sale from the

by

mortgaqe debt owed wj-thout considering evidence of the

foreclosed. property's true market value at the time of sale

'

The Monalims contend that lower courts should be instructed to

hold an evidentiary hearing to determine the true value of a
property when cal-culating a deficiency judgment, and that this

(.

continued)

(Emphases added.

)

its face, the term "sha.l-]" in the provision relates only to
when the court intended to determlne the amount of the deficiency judgment
shoufd one be requested. By contrast, the order specified that Hawaii-usA
of
"may" request a deficiency judgment at the hearlng on the confirmation
hold
that
!\1e
therefore
exercised.
have
to
appears
HawaiiusA
right
sale--a
these arguments are without merit.
On

1s
In light of our disposition, we do not address the Mona]ims'
contention that the circuit court shou]d have conducted a separate
evj-dentiary hearing on prejudice.
26

***FOR PUBLICATION IN !iIEST'S HAWAI.I

REPORTS AI\TD

PACIFIC F€PORTER***

amount should be deducted from the mortgage debt in l-ieu of the

sale price if it is the greater of the two.
Determination of the amount of a deficiency judgment

generally follows two approaches. Under the traditionalapproach, the price obtained at a forecl-osure sal-e is the

"conclusive meast)re" of the amount to be deducted from the
outstanding mortgage debt. Restatement (Third) of Property:
Mortgages S 8.4 cmt. a. (Am. Law Inst. 1'gg'7).16 The amount of

the deficiency judgment is thus automatically calcufated

by

subtracting the foreclosure sale price from the outstanding
mortqaqe debt.

1 Grant. S. Nelson & Dal-e A. Whitman, Real Estat.e

Finance Law S 8:3 (6th ed. 2014). A ma;ority of lurisdictions
have rejected this approach, however. "Whether by judicial

decision or by statute, the majority view 'affordIs] the

deficiency defendant the right to insist that the greater of the
fair market valuetl?l of the real- estate or the foreclosure sale
prr-ce be used

in calculating the deficiency."'

Sostaric v

16
"AL the opposite exLreme, some states flatly prohibit deficiency
judgments in certain contexts." Restatement (Third) of Property: Mortgages S
8.4 Reporters' Note to cmt. a.
L'1

The exacL termj-nology used varies by jurisdiction

and includes,

for example, "fair market valuer" "true market valuer" "actual val-uer"
"reasonable valuer" "fair valuer" and "true value." See ResLaLement (Third)
of Property: Mortgages S 8.4 Reporters'Note to cmt. a. This opinion treats
these terms j-nterchangeably with "fair market va1ue" and defines "fair market
va1ue" as "the price which would result from negotlation and mut.ual
agreement. after ample time to find a purchaser, beLween a vendor who is
willing, but not compelled to self. and a purchaser who is will-i-ng to buy'
but not compelled to take a particular piece of real esLate." Id. S 8.4
cmt. c (defining "fair market value").
27

***FOR PUBLICATION IN VIEST'S

HAWAI

'r

Marshall- , 166 S.E .2d. 396, 400 (W.Va

REpoRTs Al{D

PAcrFrc REPoRTER***

. 20:-4) (footnote omitted)

(quoting Restatement (Third) of Property: Mortgages s 8.4 cmt.
a)

.

schol_ars of forecl0sure l-aw have observed that the

price obtained at a forecfosure safe is often far below the fair
market value of the property as a resul-t of the forced nature of
a foreclosure sale. Robert M. Washburn' The Judicial- and
Leg islative ResPonse to Price InadequacY in Mortg aqe Foreclosure
sales, 53 S. Cal. L. Rev. 843, 848 (1980); Nel-son & whitman,
slpre. In times of economic depression a forecfosed property is
like1y to bring an even fower price.

Nelson & Whitman, supra'

Measuring the deficiency judgment based on the forecl-osure safe

price therefore may result in a doubl-e-loss to the deficiency
debtor: the debtor has lost the forecl-osed property, and the
debtor has not been credited the actual vafue of the propert'y
against the outstanding mortgage debt. See Restatement (Third)

of property: Mortgages s 8.4 cmt. a; Washburn' supra, at 850.
conversely, these conditions may aflow a mortgagee to
potentially recover more than the original mortgage debt owed to
it. This sit.uation occurs, for example, when a mortqagee
purchases the property during a foreclosure sale at a price
its fair market va1ue, obtains a deficiency )udgment for
the difference between the foreclosure price and the outstanding
mortgage debt, and then resells the property at or above its

bel_ow

2B

***FoR PUBLICATIoN IN

WEST'

S HAVTAI.I

REPORTS AI{D

PACIFIC REPORTER***

fair market value. Restatement (Third) of Property:

Mortqages

S 8.4 cmt. a; Nelson & Whitman, supra,' Washburn, supra, dt 849.
The traditional- approach to calcul-ating a deficiency judgment

thus may produce inequity between mortgagors and mortgagees by
holding a mortgagor liable

for more than what is owed and

granting mortgagees a windfall they are not due. This

has

prompted several state legislatures sj-nce the 1930s to abandon

the traditional approach and instead mandate the use of
property's fa:-r market value as the
determining a deficiency judgment.ls

minimum measure

a

for

Nelson & Whitman, supra.

In addition to the states that have adopted the
malority view through legisl-ation, several state courts have
adopted the majority view through judicial decision. In
Trustees of Washingt on- Idaho-Montana-Carpenters

Empl-oyers

Retirement Trust Fund v. Galleria Partnership, for examPle, the
Supreme Court

of Montana was cal-l-ed upon to review

a

$1,308,193.35 deficiency judgment against the defendants,

whose

foreclosed property had been val-ued at $1' 100,000 two years

prior to a sheriff's sare but was sold for $565'000' 180 P'2d
608, 609, 6II (Mont. 1989). The court determined that its

own

18
At least 23 states statutorily define a deficiency using the
of the foreclosed property. See Restatement (Third) of
value"
"fair
property: Mortgages S 8.4 Reporters' Note to cmt. ai Sostaric''766 S.E.2d at
400 n.11. Of those that have not, many prohibit deficiency judgments
entirely or wit.h respect Lo purchase money mortgages. See Restatement
(Third) of Property: Mortgages S 8.4 Reporters'Note to cmt. a.
29

***IIOR PUBLICATION IN

WEST'

S ITAI{AI.I

REPORT S

AIID PACIFIC IIEPORTER***

statutes were sil-ent as to the duty of the court. to determine
whether the sheriff's sal-e reflected the fair market vafue of
the foreclosed ProPerty. rd. at 6L6-17. The court observed,
however, that the majoritY of the neighboring states had
statutes that "limited Ia deficiency judgment] to the difference
between the fair market val-ue of the secured property at the

time of the foreclosure sale, regardless of a lesser amount
realized at t.he sa1e, and the outstanding debt for which the
property was secured." Id. at 61'6-17. The Ninth Circuit had
recognized that the purpose of two of those states' statutes was
to prevent the injustice that befall-s the judgment debtor whose
foreclosed property brings a price significantly fess than its
fair market val-ue, the Montana court noted. Id. at 617 (citing
U.S. v. MacKenzie, 51-0 F.2d. 39, 4L (9th Cir. 1975) ) . In the
exercise of its equitY jurisdiction, the court deemed it proper

to remand the case for determination of the property's fair
market value as of the time of the sheriff's sale, which would
then be used to calculate the deficiency judgment. Id.
The supreme court of west Virginia has similarly
adopted the majoritY view through judicial decision.

In

Sostaric v. Marshal1, the court noted that, while the governing
state statute was silent as to whether the value of real
property cou]d be challenged at a deficiency
proceeding, the court had previously applied
30

judgment.
common law

***FOR PUBLICATION IN

WEST'

S

HAWAI

'r

R.EpoRTs AtfD

PAcrrrc

REPoRTER***

principles of equity to set aside foreclosure sales. 765 S'E'2d
at 403. Concluding that adoption of the majority view would'
inter a1ia, prevent a creditor from receiving a windfall at the
expense of a deficiency defendant, the court overruled its
previous precedent in favor of adopting the majority view. Id'

at 405. Thus, state

Supreme

courts have not shied from using

their inherent equity powers to adopt the majority view to
create fairness between the parties in forecfosure proceedings.
See afso WansIe

v. First Nat. Bank of Vicksburg, 565 So.2d

1,2L8, L223-25 (Miss. 1990) (holding that every aspect of the

foreclosure sale must be "commercially reasonable"); Vantium
CapitaI, Inc.v.Hobson,I3'7So.3d497,499(Fl-a'Ct'App'20L4)

(utilizing

the..fair market value" as the measure for awarding

a

deficiency decree); Licursi v. Sweeney, 594 A-2d 396, 398-99
(Vt. 1,99L) (using the "value" of the property as the measure to
determine whether a deficiency existed)'

In lgg'1, the American Law Institute also adopted the
majority approach in the Restatement (Third) of Property:
Mortgages s 8.4. As set forth in the Restatement, the
deficiency judgment debtor may request a determination of the
"fair market val-ue" of foreclosed property as of the date of the
foreclosure sale.

Restatement (Third) of Pro erty: Mortqages

s 8.4 (c) . If the fair market value is greater than the
foreclosure price, the deficiency judgment debtor is entitled to
31

***FOR PUBLICATION IN gfEST'S HAWAI.I

REPORTS AI{D

PACIFIC REPORTER***

offset the deficiency against the fair market value. Id
S 8.4 (d) .

Determination of a property's fair market value is

not automatic and must be requested by a deficiency judgment
debtor. Id. S 8.4 cmt. b. Thus, the Restatement "adopts the
posit.ion of the substantial number of states that, by

legislation or judicial

decision, " allow for the calculation

of

the deficiency award using the qreater of the fair market value

or foreclosure price.

Id. S 8.4 cmt. a

In adopting the majority view, the Restatement's
approach is aimed at making the mortgagee whole while
sj-multaneously preventing the unjust enrichment that coufd

result from the traditional- approach:
This approach enables the mortgagee to be made whofe where
the mortgaged real estate is insufficient to satisfy the
mortgage obllgation, bul at the same time protects againsL
t.he mortgagee purchasing the property at a deflated price,
obtaining a deficiency judgment and, by reselling the real
estate at a profit, achieving a recovery that exceeds the
obligation.

Id.

Logically, the majority rule protects a mortgagee against

any loss that woul-d occur from a sale of the property at less

than its fair market va.lue because the mortgagee retains the

option of tendering a credit bid for the amount of the
outstanding mortgage debt and obtaining the property without

additional monetary payment if there are no greater bids.

The

dissent disaqrees, arguing that "the mortgagee wil-1 stil-l- not
made

whole if the outstanding mortgage debt exceeds the fair
32

be

***FOR PUBLICATION IN

IVEST

'S HAWAI.I REPORTS

market value of the property."

A}ID PACIE'IC REPORTER***

Dissent at 22. But this focus

on cases in which the outstanding mortgage debt exceeds the fair
market value of the property "deffects consideration of the risk
management techniques avail-ab1e to lenders when
made.
.tsanK

the loan is

"1e See Sostaric , f 66 S 'E '2d at 404 n.17 (quoting First
v. Fischer & Frichtel' Inc., 364 S.W.3d 216, 227 n.5 (Mo.

2072) (Teite]-man, C.J., dissenting) ) .

Further, by aIlowing the

deficiency judgment debtor to request a determination of the
fair market value, the Restatement's approach protects the
mortgagor from the danqer of double-loss that woul-d result from
..a deficiency judgment that does not fairly recognize the value"

of the foreclosed property. Restatement (Third) of Property:
Mortgages

S

8.4 cmt. a; see also

CSA 13-10L LooP, LLC

v.

LooP

101, LLC, 34L P. 3d 452, 456 (Art-2. 2074) ("Restatement s 8 ' 4
increased deficiencies./')
seeks to protect against artificially
19

As stated bY the Sostari-c court:

A fender compensates for risk by charging an int.erest rate
that is set both by the financial markets and by the
fender,s assessment of the borrower's creditworthiness.
The lender afso manages risk by appraising the fair market
value of the property to ensure that the loan is adequately
secured. Changing to a fair market val-ue approach
certainly would lessen the fender's chance of a large
windfall- and woufd mean only that Ithe mortgagee], like the
borrower, is loslng or gaining money based on fair market
value of property. The risk of l-oss is part of the riskby of
lending. That rj-sk of loss should not be borne solely
the borrower and then amplified by measuring the deficiency
by reference to the forecfosure sale price '
Sos

tari c,

-Lnc. ,

3O4

.8.2d. at 404 n.1-'7 (quoting First Bank v. Fischer & Frichtel'
dissenting) )
S.w.3d 21-6, 221 n.5 (Mo. 2012) (Teitelman' C'J
'166

S

JJ

'

***FOR PUBLICATION IN IIEST'S IIAWAI.I

REPORTS

AIID PACITIC REPORTER***

Thus, section 8.4 of the Restatement provides

a

greater balance of the equities between mortgagor and mortgagee

in the foreclosure process than the traditional approach.
D

I{e Adopt the Majority Approach Because It Is Consistent
with Principles of Equity and Hawai'i Law.

In Hawai'i,

HRS

S 667-L.5 (Supp. 2015) authorizes

foreclosure by action and provides as follows
The circuit court may assess the amount due upon a
mortgage/ whether of real or personal property. wilhout the
intervention of a jury, and shall render judgment for the
amount awarded, and the foreclosure of the mort.gage.
Execution may be issued on the judgment, as ordered by the
courL.

Our interpretation of sLatutes is guided by the following well-

settled principles:
Flrst, the fundamental- start.lng point for staLutoryinterpretation is the language of the statute itseff.
Second, where the statutory language ls plain and
unambiguous, our sole duty is to glve effect to 1ls plain
and obvious meaning. Third, implicit in Lhe task of
statutory construction is our foremost oblj-gation to
ascertain and give effect to the intention of the
legislature, which is to be obtained primarily from the
Fourth, when
language contained in the statute itself.
there is doubt, doub.Leness of meaning, or indlstinctiveness
or uncertaj-nty of an expression used in a statute, an
ambiguity exists.

State v. Castillon, I44

Hawai-'

j- 406, 477, 443 P. 3d 98, 103

(2079)

(quoting Panado v. Bd. of Trs., Emps.' Ret. Sys., L34 Hawai'i

1,

LL, 332 P.3d L44, 154 (2014)). Therefore, our interpretation of
HRS

S 661-I.5 must begin with the languaqe of the statute

itself.

HRS

S 661-I.5 plainly states that the circuit court

"may assess the amount due upon a mortgage

and shall

render judgment for the amount awarded." By its use of t.he word
34

***FOR PUBLICATION IN !{EST' S !{AI{AI.I

REPORTS ATiID

PACIFIC REPORTER***

the legislature has permitted courts to exercise
discretion in assessing the amount due on a mortgage, "without
..may,,

the inLervention of a )ury."

HRS

s 661-L.5. Further, the

statute confers on the court "specific authority to render a
deficiency judgment, dS an incident to the foreclosure'" Bank
of Honolulu' N.A. v. Anderson, 3 Haw. App. 545, 549, 654 P '2d
1370 , L3'74 (1,982) (emphasis omitted) (citing 2 committee on
Coordination of Rules and Statutes, Report of Committee

on

Coordination of Rules and Statutes (19?1) ) . Under its plain
languaqe, ChaPter

66'7

(governing foreclosures) does not mandate

eit.her the tradit.ional- or ma;ority approach to calculating
deficiency judgments. Instead, the Iegislature has l-eft the
determination of the amount due in a deficiency judgment and
thereby the method for its calcul-ation to the discretion of the
courLs.
The Monalims contend that courts in Hawai'i currentlY

determine a deficiencY judgment by mechanicallY subtracting the

price obtained at
mortgage debt.

a

TheY

foreclosure sale from the outstanding
ask that this court foll-ow the approach of

the majority of states and the Restatement by requiring lower
courts to conduct an evidentiary hearing to determine the fair
market value of a forecfosed property when calculating

deficiencY judgment. Citing

Wodehouse

a

v. Hawaij-an Trust Co.,

Haw. 835, 854 (Haw. Terr. 1933), HawaiiUSA argues that no such
35

32

***FOR PUBLICATION IN VIEST'S

HAWAI

or FEpoRTs Al[D PAcrrrc

REPoRTER***

inquiry is required under Hawai'i l-aw and contends that our
caselaw requires the mortgagor to bear the burden of any loss
unl-ess the foreclosure price "iS So grossly inadequate as to

shock the conscience."

court ordered the foreclosure

In Wodehouse, the trial
and sale of ProPertY at

a

public auction with an upset price of

$82,000. Id. at 840. After the property twice failed to receive
any bids, the court gave the mortgagees a choice between taking
possession of the mortgaged property as credit for $82' 000 of
the debt or postponing the sale to a later date. Id-

The

mortgagees declined both options, but the court nonetheless

ordered the conveyance of the property to the mortgagees and

credited the mortgagor $82,000 toward their outstanding debt'
rd.

OnappealrtheSupremeCourtoftheTerritoryof
Hawai'i concluded that while a court may refuse to confirm a sale
where "the highest bid offered is so grossly inadequate as to
shock the conscience ," the trial

court coul-d not compel the

mortgaqee to purchase the property at a price set by the court
because the mortgagee had a contractual right to forecfose on

the property. Td. at 852-54. The court therefore set aside the
trial court's decree and remanded the case to the lower court
with instructions to have the property offered at public auction
under foreclosure.

Id. at

854.
36

***FOR

PUBL ICATION

IN

Wodehouse

thus deal-t with the court's discretion with

IIAI{AI.I

9TEST'S

REPORTS AIiID PACIE'IC REPORTER***

regard to the sale and confirmation of safe of a forecl-osed

property and not with the separate question of whether and for
what amount a deficiencY judgment is due. See Wansley,

566

So.2d at L224 (holding that the rule that "a foreclosure sale
may not be

set aside unless the sales price i-s So inadequate
has nothing whatsoever to

to shock the conscience

AS

do

with the separate and distinct question of what, if dfiY,
deficiency judgment may be a]lowed" (citations omitted) ) .
Wodehouse

is therefore not controlling with regard to the

question presently before the court.
"Mortgage foreclosure is a proceeding equitable in

nature and is thus governed

bY

the rul-es of equity."

Beneficial

Hawaii, Inc. v. Kida, 96 Hawai'i 289, 31-2, 30 P.3d 895,

918

. A court sit.ting in equity has the power to mold its
decrees to conserve the equities of the parties under the
(2001)

circumstances. Peak Capital

Grp.

'

LLC v. Perez, 141 Hawai'i 150,

1,79, 407 P.3d IL6t 135 (2017) . When considering the equities in

a forecl-osure case, "all- of the equities must be considered"
including " [t]he equities affecting the

mortgagees

as well

as those affecting the mortgaqors." Wodehouse, 32 Haw. at 842.
The equitable discretion provJ-ded to our courts by HRS S 667-L.5

is therefore governed by principles of equj-ty and fairness.
37

***FOR PUBLICATION IN VIEST'S TTAWAI.I

REPORTS ATiTD

PACIFIC REPORTER***

As observed in the commentary to the Restatement, the

majority rul-e "enables the mortgagee to be made whole" and "also
protects the mortgagor from the harsh consequences of suffering
both the loss of the reaf estate and the burden of a deficiency
judgment that does not fairly recognize the value of that real

esLate.,, Restatement (rhird) of Property: Mortgaqes s 8.4
cmt. a. By contrast, the traditional approach is susceptible to
abuse, potentially permitting a mortgagee to reap an undue

windfall at a mortgagor's expense. Id.

The commentary goes on

to note that "[t]he approach of this section is embodied in
statutes in many jurisdictions, but the principles of this
section are

app licable

td. (emphasis

added)

whether a statute requires it or not. "

. Because the equities clearly weigh

an

favor of the majority approach, wo now adopt section 8.4 of the
Restatement (Third) of Property as Hawai'i law.

We

thus hold

a determination
that a deficiency defendant "may request
of the fair market value of the real estate as of the date of
the forecfosure safe."

Id. S 8.4(c).20

20
pursuant to HRS S 66?-1.5, the court may determine the fair
of the property "wi-thout the i-ntervention of a jury-" Section
vafue
market
8.4 of the Restatement (Third) of Property, which we expressly adopt, gives
guidance on how the fair market value may be calculated. Comment c Lo
section 8.4 provides as follows:
The determination of falr market val-ue may appropri-ately
utilj_ze a variety of approaches including (1) the "market
daLa" approach indicated by recent safes of comparable
properties; (2) the "income approach," or the value which
the reaf estate's net earning power w111 support based upon
( continued
JU

***FOR PUBLICATION IN

!{IEST'

S EAWAI.I

REPORTS ATiID

PACIFIC REPORTER***

The dissent asserts that by adopting section 8.4 of

the Restatement (Third) of Property, which accords with the rule
in the majority of jurisdictions and the modern trend, this
court usurps the legisl-ature's role.

Dissent at I0, 13, 13 n.4,

22-23. The dissent's contention is groundless in light of the
fact that the leglsl-ature, through

HRS

S 567-1,.5, has expressly

provided that the determination of the amount due in

a

deficiency judgment, and thereby the method for its calculation,
is entrusted to the discretion of the courts.

HRS

S 667-L.5

("The circuit court may assess the amount due upon a mortgage

. and shall- render ;udgment for the amount awarded, and the
foreclosure of the mortgage."). By not specifying a method of
calculation, the legislature authorized the courts to exercise
discretion in determining how to calculate deficiency judgments.
Nothing in the language of

HRS

S 661-1.5 suggests that the

legislature sought to circumscribe a court's discretion in this
regard by precluding consideration of the fair market value of

continued)

a capitalizatj-on of net i-ncome,' and (3) the current cost of
reproducing the property less depreciation.
Additionally, we adopt section 8.4's prohibition on the advance
waj-ver of the right to a determinaLion of the fair market value because * [i] f
such waiver were permitted, most mortgage forms woul-d routinely incorporate
waiver language and the impact of this section wou1d be significantly
weakened." Id. S 8.4 Reporters' Note to cmt. b.
39

***FOR PUBLICATION IN

WEST'

S

HAWAIOI REPORTS AIiID PACIFIC REPORTER***

the forecfosed. properLy." The dissent's assertion reflects a
core misunderstanding of the legal principle at the foundation
of this opinion--the application of a statute to the facts of a
case. It is axiomatic that it is "the province and duty of the
judicial department to saY what the law is."

MarburY v.

, 1,11 (1803) . And accordingly, " It]hose who
apply the rule to particular cases, must of necessity expound

Madison, 5 u. s.

L3'7

and interpret that rule. "

Id.

Despite the cl-ear language of the statute, the dissent

claims that our interpretation of

HRS

S 66'7-L-5 is "misguided."

Dissent at 18. Specifically, the dissent first posits that

court'S assessment Of "the

amOunt due upon

a

a mortgage" under

HRS

s 661-1,.5 is not re]ated to the amount of a subsequent
deficiency judgment, but instead refers to a determination of
the amount due on the mortgage before a foreclosure sale
taken place. Dissent at 15. However, the dissent's

has

interpretation is directly contrary to longstanding precedent '
See Anderson,

3 Haw. App. at 549, 654 P.2d at- L314 (*IHRS S 661-

1.51 does not require the determination of a sum certain before

foreclosure is decreed since

a

deficiency

udgment

only after the sale of the mort.gaged property.")

is rendered

(emphases

2L
Indeed, at oraf argument HawaiiUSA's counsel acknowfedged that
the circuit court cou1d, under the right procedural circumstances, consider
the fair market value of a foreclosed property. Oral- Argument at 00:59:4501:00:10, HawaiiUSA v. Monalim, (No. SCWC-15-0000807), http: / /oaoa.hawail.gov
/ tud/ oa/ 19lSCOA-O1-1119-SCWC-16-807 .mp3 [https : / /perma.cc/TBK2- 9K9Gl .
40

***FOR PUBLICATION IN !|EST'S HAWAIOI

REPORTS A}ID

PACIFIC REPORTER***

added) (citing Indep. Mort.g. Tr. v. Glenn Constr. Corp., 57 Haw.

554, 555 n.1, 560 P.2d 488, 489 n.l- (L917)).22
Second, the dissent maintains that HRS S 661-L.5 does

not vest any discretion in the courts to determine the method

by

which deficiency judgments are cal-culated. Particularly, the

dissent relies on the fact that

HRS

S 661-1.5 does not contain

language that "expressly permitIs] the court to consider fair

market value."

Dissent at L6. But it is this very absence of

22
The dissent criticizes our c itation to Anderson because, the
dj-ssent asserLs, it is a decision of the ICA that "this court has never
referenced or adopted." Dissent at. 15 n .5. Respectfully, this is a
misstatement of our jurisprudence. See Bank of America, N .A. v. ReyesToledo, 139 Hawai'i 361, 36'7, 390 P.3d 1248| L254 (2071 ) (citing Anderson for
the rule that a forecfosing party must prove the exi-stence of an agreement,
the terms of the agreement, a default by the mortgagor under the terms of the
agreement, and the giving of the cancellation notice in order to prove
ent.itlement to foreclose); Bank of N.Y. Mellon v. R. Onaga, Inc., 140 Hawai'i
358, 367, 3'70, 400 P.3d 559, 562, 51 I (201"1 ) (af firming circuit court's
judgment confirming the sale of foreclosed property after the foreclosing
party pr oved it was entitl-ed to foreclosure under the " [Anderson]
requirements")

.

The dissent then asserts t.hat its interpretation of HRS S 657-1.5

is in fact consistent wit.h the interpretation of the statute in Anderson. To
reiterate. the dissent interprets HRS 66'7-I.5's statement that "It]he circuit
court may assess the amount due upon a mortgage" as referring to the
determination of t.he amount due upon the mortgage before a forecl-osure sale
Dissent at 15. In Anderson the ICA rejected a foreclosure
t.akes place
defend.ant's contention that the decree of foreclosure, which entitled the
foreclosing party to a forecl-osure sale, was inval-id because it failed to
specj-fy the actual amount due on the mortgage. The rule set out by the ICA
in Anderson, which we adopted in Reyes-Toledo, is that t.he foreclosing party
need only prove the existence of an agreement, the terms of the agreement, a
defaul-t by the mortgagor under the terms of the agreement, and the giving of
the cancel-l-ation noti-ce in order to prove entit.lement to f orecl-ose.
Anderson, 3 Haw. App. aL 549, 654 P.2d aL 1374; Reyes-Toledo, 139 Hawai'i at
36'7,390 P.3d at 1254. Our law does not burden the foreclosing party with
the obligati-on to prove the amount due on the mortgage before the foreclosure
sale because "a deficlency judgment is rendered only after the sale of the
mortgaged property." Anderson, 3 Haw.App. at 549. 654 P.2d at 1'314. This
process does not require a court to determine the amount due on the mortgage
before granting a decree of forecfosure to the mortgagee.

4I

***FOR PUBLICATION IN

I{EST ,S

HAWAI.I REPORTS AIID PACIEIC REPORTER***

an express directive on the method of calculation that enables

a

court to exercise discretion in determining the deficiency
judgment, including applying, or not applying, the traditional
method that the dissent appears to favor'
The dissent next relies upon 20L2 "legislative

s 667-1,.5, a statute that the dissent
acknowledges has essentially remained unchanged since its
enactment in 1859.23 Dissent at 16-11. Even if the legislative

history,, to

HRS

"history" cited bY the dissent had been contemporaneous with the
enactment of the 1859 version of the statute, resort to
legislative historY in this manner would only be appropriate if
the word "may" in the statute were

ambiguous.

Cast.i11on, L44

Hawai'i at 4LI, 443 P.3d at 103 (*[W]here the statutory language

is plain and unambiguous, our sole duty is to give effect to its
ptain and obvious meaning." (quoting Panado, 1'34 Hawai'i at IL,
332 P.3d at 154)) .

And assuming arguendo that the word "may" in

S 667-L.5 is ambiguous, reliance on a subsequent legislative
committee rePort written 153 years after enactment of the

HRS

statute underscores the criticism this aPProach has repeatedlY
garnered from the United States SuPreme Court. United States v
Texas, 507 U.S. 529'

535

n.4 (1993) (* [S]ubsequent legislative

23

The dissent describes the 2Ot2 Legisfature
which most. recently amended HRS s 667-1.5 [ ' ] " Dissent
that the only chang"" to HRS s 66'1-1-.5 effected by the
to t.he sectlon number and titl-e. 2012 Haw. Sess. Laws

42

as "the Legislature
at 18. We observe

2012 amendments were

Act 182, S 3 at 648'

***FOR PUBLICATION IN !{EST'S ITAWAI.I

REPORTS AND PACIE'IC REPORTER***

history is a 'hazardous basis for inferring the intent of an
earlier' Conqress. " (quoting Pension Benefit Guar. CorP. v. LTV
Corp., 496 U.S. 633, 650 (1990))); United States v. Price,
u.s. 304,313

36L

(Lg6O).24

The dissent's accusation of usurpation and judicial-

activism is therefore without any validity in light of our
statutory law vesting such discretion in the circuit court

and

the equitable nature of foreclosure proceedings.2s
Additionally, the dissent disagrees with our adoption
of the Restatement's approach because "the new rule wil-l
protect bot.h parties to the mortgage." Dissent at
not

10.

However, the dissent's view has been overwhefmingly rejected by
the
24
Additionally, the committee report in fact acknowledges
judgments'
see
deficiency
calcul-ating
inequity of the traditional method of
(t'Your
1075
at
Journal-,
SenaLe
20L2
in
s. stand. comm. Rep. No. 3325,
Commi_ttee further notes that owner-occupants who Iose thei-r primary
residences to foreclosure suffer harsh personal losses that leave them
particularly susceptible in cases where the fender may pursue a deficiency
As such, owner-occupants shoul-d be provided wlth greater
judgment
the
relier from deficiency judgments."). As the committee report noted,
merited
results
produce
inequitable
to
tendency of the traditional method
further discussion. Id. It is not surprising that the majority rule' which
we adopt today, is cogrnizant of the concern articul-ated in the committee
report and provides an equitable means to calcul-ate the deficiency judgment
in such cases.
The dissent argues to the contrary, stating that the legi-slature
..expressed concern about limiting lenders' ability Lo pursue deficiency
judgments, even in the case of a displaced owner-occupant, due to the
pre.ratence of borrowerS refinancing their mortgages for more than the value
the
of tfr.ir home.,, Dissent at 17-1g (footnote omitted). Respectfully'
pertained
solely
which
dissent mj-sconstrues the legislature's apprehension,
of a
consideration
..prohibiting,,
to
all
not
at
deficiency judgments, and
to
amount
'
more equitabfe means to determine their

the Missouri case thaL the dissent relies upon' the
the manner in which deficiency judgments are
reconsider
t
o
court declined
cafculated subst antially because Missouri lacked a sLatutory equival-ent to
HRS S 56'7 -1- .5 . Dissent at 18-19; First Bank, 364 S.W'3d aL 223'
Tnde €d, j_n

43

***FOR PUBLICATION IN VIEST'S HAWAI.I

REPORTS AND

PACIFIC REPORTER***

the majority of j urisdictions ' lega1 scholars, and the American
See Washburn, supra, at 939 ("Fairness in the
Law Institute.
mortgaqe foreclosure Process can be achieved only by balancing
the rights of the mortgagee with the need to protect the
mortgagor. The ful-crum of this balance is the market vafue of
the foreclosed property."); Restatement (Third) of Property:
Mortgages S 8.4 cmt. a (adopting position of the substantial
number

of jurisdictions providing the deficiency defendant with

the right to have "the greater of the fair market value of the
real estate or the foreclosure sale price be used in calculating
the deficiency")

.

The dissent also posits that our adoption of the

majority rule ..wi1I unnecessarily burden parties to a
forecl-osure acLT-on," and that tasking the trial court with
assessing the fair market value of reaf property is unduly
burdensome because

it wil-l- "require [] additional time and

force [ ] all parties to incur additional costs. "

Dissent at 20-

2I. Despite the dissent's speculative concerns, the experience
of jurisdictions following the majority rule is quite the
contrary:
IW] e find no auLhority or data demonsLrating that our
t.rustee foreclosure laws would be unsettled were we to
all-ow a trust deed grantor to challenge the value of reaf
property at a deficiency ;udgment proceeding . A majority
of states alfow grantors to chall-enge the vafue of real
property at a deiiciency judgment proceeding. we have
found no authority suggesting that the staLes that follow
the majority rufe suffer from unsettled forecl-osure laws,

44

***FOR PUBLICATION IN I{EST' S ITAI{AI.I

REPORTS AND PACTTIC REPORTER***

nor have we found any data demonstrat.ing that the banking
institutions in those states have been neqativel-y affected
as a result of t.helr jurisdictions adhering to the majority
rule

Sostaric, 766 S.E.2d aL 404 (emphases added). Moreover'

any

administrative concerns entailed by our adoption of section 8.4
are more than offset by the equity and fairness gained in
determining

a

deficiency judgment based on the fair market value

of the property, as manifestly demonstrated by the widespread
adoption of the majority approach.26
The dissent further contends that our adoption of the

majority rule in this case is unwarranted because, "It]he record
26
Further, our courLs are already call-ed upon to make financial
determinations simil-ar to assessing the fair market vafue of real- property in
many other contexts. See, e.g. , SLate v. Nelson, 140 Hawai'i 1,23, I34 n.I4,
398 P.3d 71,2, 723 n.L4 (201,'1 ) (deeds of reaf property used to secure a bailbond must have a market value at least twice the amount of the bail); Gordon
v. Gordon, 135 Hawai'i 340,349, 350 P.3d 1008, L0l1 (2015) (division of real
property for divorce); City & Cty. of Honolulu v. Steiner, 73 Haw. 449, 459,
834 P.2d, 1302, 1308 (L992) (tax appeafs); Burgess v. Arita, 5 Haw. App. 581,
589,104 P.2d 930, 936-37 (1985) (damages for breach of fand safe contract)
Parti-es may adduce evidence of the fair market vafue of the foreclosed-upon
property in a variety of ways that do not. entail significant additionaf
expendilure. See Ci-ty & Cty. of Honol-ulu v. Int'l- Air Serv. Co., 53 Haw
322, 332, 628 P.2d I92, 200 (1981) ("Most courts presume an owner is famifiar
with his land and the market therefor and thus is competent to state an
opinion of its va1ue."); State v. Kunimoto, 62 Haw . 502 , 50'l , 6I'7 P .2d 93 , 91
(1980) ('tRlecent sales of similar real estate are admissible as evidence in
condemnati-on cases, either as substantive proof of value of property taken or
in support of an expert's opinion as to vaf ue . " ) ,' Krog v. Koahou, No . SCWC12-0000315, 20I4 wL 813038 (Feb. 28, 2014) (mem.) (holding that a decl-aration
of a real estate broker was properly admitted to prove the rental val-ue of
real property) .
Tn response to the many authorities cited above, the dissent
crit.icizes our citation to Tnternational- Air Services Co. because "In]either
the mortgagee nor the mortgagor would be a disinterested party who coul-d
proffer an i-mpart.ial opinion." Dissent aL 2I n.9. But assessing the
credibility of interested witnesses and the weight to be given to testimony
is a core function of a trial court. Addi-tionally, this critique is equally
applicable to any case in which parties retain expert wit.nesses.
45

***FOR PUBLICATION IN I{EST'S HAWAI.I

shows

REPORTS AND

PACIFIC REPORTER***

that the deficiency judgment will not unjustly enrich the

credit union." Dissent at !1-.21 fn support of this contention,
the dissent focuses on the fact that

HawaiiUSA

the Property at the forecl-osure auction. Id.

did not purchase
The Restatement,

r re)ects the requirement that the fair value
determination be restricted to mortgagee purchasers. Section

however

B

.4 instructs that
limiting the application of the fair value determination to

mortgagee purchasers may discourage mortgagees who
contemplate obtaining deficiency judgments from taking part
in the forecfosure biddinq and hence ma y remove a

slgnificant impetus to higher bidding by third parties. In
addition, even when a third art is the rchaser the
mort agor ma stil-l- suffer the un ustifiable double burden
imposed by the l-oss of his or her real estate and an
unfairly measured deficiency -judgment Consequently, under
thj-s sectlon foreclosing mortgagees are subject to the fair
va1ue limitation on deficiency judgments irrespective of
who purchases at the safe.

Restatement (Third) of Property: Mortgages S 8.4 Reporters' Note

to cmt. b

(emphases

added). Thus, while section 8.4's primary

purpose is "preventing the unjust enrichment of the mortgagee

. Isection 8.4] also protects the mortgagor from the harsh
consequences

of suffering both the loss of the real- estate

and

the burden of a deficiency judgment that does not fairly
recognize the value of that real- estate. " Restatement (Third)

of Property: Mortgages S 8.4 cmt. a. This second purpose is
served even when a third party is the purchaser because the fair

vafue determination protects the mortgagor from a deficiency
2'1

HawaiiUSA also argues that it did not secure a windfall profit
over whaL was actually owed because it was not the purchaser of the Property.
46

***FOR

PUBL ICATION

WEST'S HAVTAI.I REPORTS AIID PACIFIC REPORTER***

IN

judgment that does not fairly

recognize the value of the lost

real estate.28
we observe that both the dissent and HawaiiusA argue

that the deficiency judgment awarded against the Monalims fairly
recognizes the val-ue of the Property because the sale price at
the forecfosure auction exceeded the City and County's valuation
of the Property for purposes of tax assessment. Dissent at l-1'
The reliance by Hawai1USA and the dissent on the tax-assessed

value of the Property to demonstrate market vafue does not
recognize the longstanding and "overwhelming weight of authority

that assessed vafue is not competent direct evidence of value
C. C. Marvel, Annotation,

for purposes other than taxation."
Valuation for Taxat.ion
Other Purposes 39

A. L.

PurPoses

R.2d 209

as Admissible to Show Value for
54

[a]

(1955) ; see

afso Mettee v

Urban Renewal Agency, 518 P.2d 555, 557 (Kan. L974) (*Although

the assessor is required to appraise the vafue of the property,
28
The dissent cl-aims incredulity of our adoption of the majority
rule in this case. Dissent at 10, !4, 22-23. The dissent acknowledges'
however, that in instances where, for example, (1) the fender is the
purchaser, (2) the borrower alleges that the sal-e terms were unconscionabfe,
or (3) the borrower alleges that the sal-e was conducted fraudulently' a court
could be required to make a fair value determination when there are
suggestions of inequity to ensure fairness to the borrower. DissenL aL 20
n.'1. But wai-ting for a case in which the mortgagee is unjustly enriched
before adopting itre malority rule is imprudent. Our adoption of the majority
rul_e sha1l be prospective only--as it would be in any subsequent case. see
infra pp. 49-51,. It woufd thus result in a greater injustice if we were to
arait a case in which the mortgagee receives an undue windfall- and the
borrower suffers the "harsh consequences" of "a deficiency judgment that does
not fairly recognize the value of that real estate." RestaLemenL (Third) of
Property: Mortgages S 8.4 cmt a.
41

***FOR PUBLICATION IN I{EST'S

ITAWAI

'r

REpoRTs Al{D

PAcrFrc REPoRTER***

it is an open secret that the assessment rarely approaches the
true market val-ue. " (quoting 5 Nichols on Eminent Domain S 22.L
For over a century, courts in this country have
recognized that tax assessments of real estate are not always
aimed at estimating fair market value, and even when that is the
(3d ed. ) ) ) .

case it is well understood that the custom of assessors is to
assess property in comparison with the surrounding land'

Wray

v. Knoxville, L.F. & J.R. Co., 82 S.W. 41I, 415 (Tenn. 1904)
("This court knows judicially and as a part of the financial
history of the state that land is never assessed for purposes of
taxatj-on at its reaf cash market value, though that may be the
law, but only in comparison with other lands around it [. ] ") ;
also McCIure v. Delquzzt, 161 P.2d 146, 1'48 (Wash. Ct. App.
1989) (* [N] otwithstanding statutory requirementsr dssessor'

see

s

not actual .") .2e As such, the reliance by
the dissent and HawaiiUSA on the tax-assessed val-uation of the
property is misguided. In fact, examination of the facts in

val-ues were relative,

this very case disabuses one of the notion that tax

assessments

accurately reflect market vafue. The Monalims purchased the
Property in 2008. The mortgaqes the Monalims executed on the

property at the time of sale were for the total amount of
Assessed vafues may also exceed markeL vafues' See' e'g , Kuiters
v. cty. of Freeborn, 430 N.W.2d 461, 452 (Minn. 1988) (agricultural- property
in the county was assessed, on averagie, at 115% of its market val-ue) '
29

48

***FOR PUBLICATION IN WEST'S HAVTAI.T

REPORTS A}ID PACItr'IC REPORTER***

$1,,025r100. The tax-assessed value of the Property in 2008 was
$322,600.

In any event we need not resol-ve whether the
deficiency judgment awarded against the Monalims fairly
accounted for the value of the Property. Of more fundamental

importance, there is little

disagreement that the equitable

considerations of forecl-osure proceedings warrant affording the
mortgagee the right to apply the fair market value of mortgaged

property towards the amount due on the mortgage, ds section

8.4

provides. The majority of jurisdictions and the growing
consensus regarding a mortgagor's right to a fair market value

determination firmly establ-ishes that, by adopting section 8.4,
we advance the fundamental fairness of foreclosure proceedings

in Hawai'j-, protect mortgagors from the double burden of losing
their land and suffering an unfairly measured deficiency
judgment, and enable mortgagees to be made whole.
Because

rule

our adoption of section 8.4 "announceIs] a

new

. we are free to apply this new rule with or without

retroactivity.

"30

Lewi v. State, I45 Hawai'i 333, 349 n.2L,

452

P.3d 330, 346 n.2L (201,9) (internal quotations and alterations

omitted) (quoting State v. Jess, t!7 Hawai'i 381, 401', 184 P.3d
30
We relect the Monalims' contention that procedural and
substantive due process was violated in determining the amount. of the
deficiency judgment in light of the cj-rcumstances of thj-s case.
49

***FOR PUBLICATION IN WEST'S

l_33,

1-53

(2008) )

HAWAIOI REPORIS AtiID

PACIFIC REPORTER***

. Regarding the retroactive effect of our

holdings, we have adopted the following approach:
This court has generally considered three primary
al_ternatives in deciding to what degree a new rul-e is to
have ret.roactive effect. First, thi-s court may give a new
rule purely prospective effect, which means that the rule
is applied neither to the parties in the law-making
decision nor to those others against or by whom it might be
applied Lo conduct or events occurring before that
decision. second, this court may give a new rule limited
or "pipeline" retroactive effect. under which t'he rule
applies to the parties in the declsion and al-l- cases that
are on direct review or not yet final as of the date of the
decision. Third, this court may gi-ve a new rufe fullretroactive effect, under which the rul-e appli-es both to
the parties before Lhe court and to aff others by and
against whom claims may be pressed.
In exercising our discretion in deciding the effect of a
new ru1e, we weigh the meritS and demerits of retroactive
application of the particular rule in light of (a) the
prr.po". of the newly announced ru1e, (b) the extent of
on the old standards, and (c) the effect on
reliance
the administration of justice of a retroactive application
of t.he new standards.

citations and quotations omitted) . Here, w€ adopt
the majority approach to calculating deficiency judgments in
order to properly balance the equities between mortgagors and
Id. (internal

mortgaqees, protect mortgagors from doubl-e-l-oss by not fairly
recogni z1ng the vafue of the foreclosed property, and prevent
undue windfall-s at mortgagors' expense. However, parties have

deficiency )udgments that
have occurred within this State over the years' and allowing
petitions to reopen finalized deficiency judgments woul-d impose
rel-ied on the finality

of the

many

50

***FOR PUBTICAIION IN

WEST'

S IIAWAI.I

REPORTS

AIID PACIFIC REPORTER***

significant effect on the administration of justice.3r See
id.; see also HRCP Rule 60(b) (6) (permitting courts to upon

a

motion relieve a party of final judgment for any "reason

justifying rel-ief from the operation of the judgment").
Therefore, our adoption of the majority rule is prospective in
effect. and applies only to foreclosure cases in which

a

citing federal caselaw, the dissent counsefs Lhat "we do not
promulgate new rul-es to be applied prospectivefy onl-y[']" Dissent at 13 n.4
(quoting J ames B. Beam Distilling Co.v. Georqia , 501_ U. s 529, 54-7 (1991)
Respectfully, the citation is simply inapposite
(Blackmun, J., concurring) )
because that case concerned "a newly dectared constitutionaf ru1er " James B.
co., 501- u.s. al 541 (Bl-ackmun, J. concurring), and more
Beam Distilling
31

@courtsofthisStatearenotsubjecttothe1imitationsof
the federal- case and controversy requirement cj-ted by Justice Blackmun.
Additionally, Justice B]ackmun was not advocating against the prospective
applicatlon of a new ruIe, instead he was arguing that the Court's decision
It i-s also
was required to be applied both prospectively and retroactively.
courts
issue,
state
at
l-aw
are
questions
state
of
weff settled that "[w]hen
generally have the authority to determine the retroactivity of their own
decisions." Garcia, 96 Hawai'l aL 21'I, 29 P.3 d at 930; State v. Yong Shik
Won, 137 Hawai'i 330, 355 n.49, 37 2 P.3d 1065' 1090 n.49 12015); Schwartz v.
our decision to
StaLe, 136 Hawai'i 258, 2'72, 361 P.3d 1161, 1175 (2015)
is
on Lhe application
prospectively
based
only
case
in
t.his
apply the hofding
argument'
oral
note,
at
precedent.
We
i-n
our
fort.h
set
factors
of the
HawaiIUSA, s counsel specifically stated that if this court were "incl-ined to
adopt t.he majority view and to adopt a new rule for calculating deficiency
judgments
it should be prospective in application." Oral Argument at
HawaiiUSA v. Monali-m, (No. SCWC-16-0000807),
00 : 59 201 -L9
'
http : / / oaoa. hawaii . gov / 1ud/ oa/ 19 / SCOA-011119 SCWC 16 807.mP3
Ihttps z / /perma.cc/TBK2- 9K9G] .
In addition' this course of applying our decisions prospectively
is one we have frequently followed when doing so is in the interests of
justice. See, e.9. , Chen v. Mah, 146 Hawai'i L5'7 ' L'|'t , 45'7 P.3d 796, 816
(2020) (applying a holding prospectivel-y); State v. Torres, I44 Hawai'i 282'
295, 439 P .3d 234, 241 (201'9 ) (same) ; State by Office of Consumer Prot. v.
Joshua, 141 Hawai'i 91, 98-99, 405 P 3d 527, s34-3s (20L'7 ) (same); State v.
Aufd, 136 Hawai'i 244, 255-56' 351 P 3d 47r, 482-83 (2015) (same); In re T.M.,
l-31 Hawai'i 41-9, 3L9 P. 3d 338 (20]-4) (same); State v. Hussein, 1,22 HawaL'i
495, 229 P.3d 313 (20L0 ) (same) ; Jess, 11"1 Hawaf i at 404, I84 P.3d at 156
(same); Kahale v Citv & Ctv. of Hono]ulu, 104 Hawai'i 341, 348' 90 P.3d 233,
240 (2004) (same); Lindinha v. HiIo Coast Processinq Co., L04 Hawai'i 164'
r'70t 86 P.3d 973, 9 'l 9 (2004) (same); Tachibana v State. 79 Hawai'i 226' 238,
900 P .2d 1.293, 1305 (1995) (same); State v. Stanley, 60 Haw. 52'7, 533, 592
P.2d 422, 426 (L979 ) (same) .
tr'1
JJ-

***FOR PUBLICATION IN TIEST'S HAI{AI.I

deficiency judgment is first

REPORTS

AIID PACIFIC REPORTER***

entered after the date of this

opinion.32

rv.

coNclusroN

Based on the foregoinq, we vacate the ICA's August L6,
20LB Judgment on Appeal,

the circuit court/ s Order Granting

Deficiency Judgment, and the Deficiency Judgment, and the

case

is remanded to the circuit court for proceedings consistent with
this opinion
Gary Victor Dubin

/s/ Sabrina S.

(Frederick J. Arensmeyer
with him on the briefs,
application, and reply)
for petitioners

McKenna

/s/ Richard W. PoIlack
/s/ tulichael D. Wil-son

J. Berger
(Jonathan W.Y. Lai and
Tracey L. Ohta with him
on the briefs and response)
for respondent
Thomas

32
In the event a deficiency judgment is entered on remand, our
adoption of the majori-ty rule will- not be applicable to the Monal-ims as the
Deficiency Judgment was i-nitiaIly ent.ered before the date of this decision.
52

